         Investigative Report
       On Allegations that U.S. Geological Survey Employees Assigned
   To Conduct Research on the Yucca Mountain Project May Have Falsified
               Scientific Data and Quality Assurance Records




This report contained information that has been redacted pursuant to 5 U.S.C. §§ 552(b)(6) and (b)(7)(C) of the Freedom
of Information Act and the Privacy Act, 5 U.S.C. § 552a.
                                               Results in Brief
        This investigation was initiated after receiving allegations from the Department of Energy (DOE),
Office of Inspector General (OIG), that Joseph Hevesi, Research Hydrologist, U.S. Geological Survey
(USGS), and other USGS employees who were assigned to conduct research on the Yucca Mountain
Project (YMP), may have falsified scientific data and quality assurance records. The DOE had discovered
19 e-mails that were either prepared or received by Hevesi from 1998 through 2000, which suggested he
made false statements and falsified documents in an effort to circumvent and/or misrepresent compliance
with DOE/YMP Quality Assurance (QA) requirements. These e-mails were discovered during a review
of documents for possible entry into a publicly available document repository pursuant to the Nuclear
Regulatory Commission’s (NRC) regulations for the issuance of the DOE’s license to construct a geologic
repository for the receipt and storage of high-level radioactive waste at the Yucca Mountain, NV.

       OIG agents conducted interviews of current and former DOE and USGS employees and contractor
employees, analyzed documents, and reviewed over 150,000 e-mails from 1998 through the present.
From this e-mail review, 7 additional e-mails were identified that contained information similar to that
found in the original 19. Due to potential criminal violations, all of these e-mails warranted further
review and investigation. Agents reviewed each of the 26 questioned e-mails to determine the underlying
meaning of the statements made and the actual and/or potential impact on the YMP. Agents reviewed the
e-mails and focused on the reliability of the scientific data and compliance with YMP QA protocol
requirements.

        The investigation revealed that the substance of several questionable e-mails, and the related
conduct discussed, either did not occur or could not be substantiated. Additionally, in some cases, the
potential for falsification or fabrication could not be independently corroborated through available
witnesses or documentation.

         The investigation further revealed that Hevesi and his supervisor, Alan Flint, had limited
managerial oversight from DOE and USGS officials during the development of the “Simulation of Net
Infiltration for Modern and Potential Future Climates Analysis Model Report (Infiltration AMR).” In
addition, Alan Flint’s lack of supervisory oversight of Hevesi fueled Hevesi’s frustration with the YMP
QA protocol requirements.

      This investigation was declined for prosecution by the United States Attorney for the District of
Nevada.

                                                  Background
        The need for a secure facility in which to dispose radioactive waste has been known in this
country since at least World War II. Beginning in the 1970s, the United States and other countries
evaluated many options for the safe and permanent disposal of radioactive waste, including deep seabed
disposal, remote islands, dry cask storage, disposal in the polar ice sheets, and rocketing waste into orbit
around the sun. After analyzing these options, disposal in a mined geologic repository emerged as the
preferred long-term environmental solution for the management of the radioactive nuclear waste.1
Congress recognized this consensus 23 years ago when it passed the Nuclear Waste Policy Act (NWPA)
of 1982.

1
 Recommendation by the Secretary of Energy of Candidate Site Characterization for the First Radioactive Waste Repository,
DOE/S-0048, February 2002.
                                                            2
         The NWPA provided for the development and establishment of a comprehensive national program
of research and demonstration regarding the disposal of high-level radioactive waste and spent nuclear
fuel.2 In the NWPA, Congress designated the DOE for implementing this policy and specified its role of
characterizing, designing, building, and managing a federal radioactive nuclear waste repository. Under
the NWPA, the Office of Civilian Radioactive Waste Management Program (OCRWM) was established
to develop a comprehensive national program for the permanent disposal of high-level radioactive waste
and spent nuclear fuel from commercial nuclear utilities and national defense programs.

        The Office of Repository Development (ORD) was established within the OCRWM and is
responsible for (1) managing the activities to establish a geologic repository in which to dispose of the
nation’s nuclear waste, (2) ensuring a safe and secure underground facility to store nuclear waste in a
manner that protects the environment and the public, (3) supervising the activities associated with the
submission of a License Application, (4) ensuring the establishment of proper safety and functional
requirements to seek authorization from the NRC to build a geologic repository, and (5) managing the
overall OCRWM Program.

       Following the provisions of the NWPA, and site recommendation guidelines,3 the DOE ORD
considered nine potential repository sites then under consideration for characterization. After 5 years of
research, scientists from around the world concluded that Yucca Mountain, NV, was the top-ranked site
having the best technical and scientific characteristics to serve as a radioactive nuclear waste repository.4
Congress subsequently amended the NWPA in 1987 and directed the DOE to select Yucca Mountain as
the only site to be studied and characterized for suitability as a repository and to cease all activities at
other potential repository sites.5

        After more than 20 years of scientific investigation from an array of scientific and technical
disciplines and over $8 billion spent, the Secretary of Energy submitted a comprehensive statement to the
President on February 14, 2002. On February 15, 2002, the President approved the Secretary’s
recommendation and forwarded it to Congress. On May 9, 2002, and July 9, 2002, the U.S. House of
Representatives and the Senate, respectively, passed House Joint Resolution 87,6 which the President
signed into law on July 23, 2002, designating Yucca Mountain as the site for the nation’s first geologic
repository per section 115(c) of the NWPA.7

        The Secretary of Energy’s recommendation of the Yucca Mountain site marked the end of the site
characterization phase of the YMP. As described in Section 113 of the NWPA,8 research studies that
were conducted during the site characterization were designed to determine the suitability of the Yucca
Mountain site for a nuclear waste repository. During the remainder of 2002, the project’s emphasis
shifted to the preparation of a License Application to be submitted to the NRC for approval for the DOE
to construct and ultimately operate the nuclear waste repository.9 The YMP is currently at this stage of
development.

2
  NWPA section 211(1); NWPA section (2)(A); NWPA section (2)(B).
3
  The guidelines then in force were promulgated at 10 CFR Part 960, General Guidelines for the Recommendation of Sites for
Nuclear Waste Repositories, 1984.
4
  Recommendation by the Secretary of Energy of Candidate Site Characterization for the first Radioactive Waste Repository,
DOE/S-0048, February 2002.
5
  NWPA sections 160 (a)(1) and (a)(2).
6
  H.J. RES. 87 ENR for the 107th Congress.
7
  NWPA section 115(a).
8
  NWPA section 113(a).
9
  10 CFR Part 63.
                                                             3
USGS Involvement With Yucca Mountain

        The concept of disposing waste in the desert regions of the Southwest was first proposed by the
USGS in the 1970s. In 1976, the Director of the USGS identified a number of positive attributes in and
around the Nevada Test Site that would make positive contributions to geologic disposal, including
multiple natural barriers, remoteness, and an arid climate.10 In 1981, a USGS scientist documented that
water tables in the desert Southwest are among the deepest in the world, and the geologic setting includes
multiple natural barriers that could isolate waste for “tens of thousands to perhaps hundreds of thousands
of years.”11 In contrast to the strategy for isolating waste in salt or sites below the water table, scientists
from USGS concluded that waste could be disposed near the Nevada Test Site well below the ground
surface, but still well above the water table.12 At the time of the 1987 congressional decision to direct the
DOE to study only Yucca Moutain, USGS had already conducted extensive scientific research of the
geology, hydrology, geochemistry, and other characteristics to determine whether Yucca Mountain was a
suitable place to build a geologic repository.13

DOE/YMP and USGS Interagency Agreement

        On February 1, 1997, the USGS YMP Branch entered into an Interagency Agreement14 with the
DOE to assist in waste management activities in compliance with the NWPA, the Nuclear Waste Policy
Amendments Act of 1987, U.S. Code of Federal Regulations (CFR), Title 10, Part 60 and any other
applicable regulations relating to health, safety, and protection of workers, the general public, and the
natural environment as required by public laws of the federal, state, and local governments.15 This
Interagency Agreement was the primary contractual document between the USGS and the DOE. Under
this agreement, the USGS agreed to perform the following tasks in pertinent part:

        A. Site Investigations

           Provide high-quality products related to earth sciences. Publish and defend technical work.
           Conduct investigations of the geologic, hydrologic, and climate nature of the Yucca Mountain
           site and surrounding areas that are relevant to the ability of the site to contain and isolate
           nuclear waste.16

        B. Water Resources Monitoring

           Design and operate a water resources monitoring network for assessment of impacts on water
           quality and quantity in the area, including preparation of and adherence to quality-related field
           laboratory technical procedures and training of personnel. Conduct field sample collection
           measurements and sample analysis. Summarize data and conduct analyses for addressing
           potential significant adverse impacts to water resources.17




10
   1976. Major Assets & Liabilities of the Nevada Test Site as a High-Level Radioactive Waste Repository.
11
   1981. “Radioactive Waste Disposal in Thick Unsaturated Zones.” Science, 212, 1457-1464.
12
   Ibid.
13
   U.S. Department of Energy, Office of Public Affairs, “Why Yucca Mountain – Frequently Asked Questions,” August 2005.
14
   DOE IA No.: AI08-97NV12033, February 1, 1997.
15
   Ibid.
16
   Ibid.
17
   Ibid.
                                                            4
        C. Regulatory Support

           Present and defend products provided to and by the DOE using USGS data, methods of
           investigation, accuracy, and limitations of data, interpretation of data, and similar topics
           applicable to USGS work.18

        D. Management and Planning

            Develop, in cooperation with the DOE and its contractor(s), the management plans,
            budgets, and schedules necessary to carry out cost effective, timely, and efficient site
            investigations, preparation of licensing documents, and technical documentation.19

        E. Quality Assurance

             Participate and comply with the YMP QA Program, which includes the QA
             Requirements and Description document, and approved DOE ORD and USGS
             implementing documents.

        DOE’s current Management and Operating contractor of the YMP is Bechtel SAIC (BSC), a
private company. BSC’s responsibilities include program planning, quality assurance oversight,
administration, lead management and integration, human resources, external interaction, budgets,
schedules, and all activities supporting the License Application to the NRC.

USGS E-Mail Discovery

        Following congressional approval, the NRC set forth rules and regulations governing the licensing
of the DOE to receive and possess high-level radioactive waste at a geologic repository operations area
sited, constructed, or operated at Yucca Mountain in accordance with the NWPA, as amended, and the
Energy Policy Act of 1992. Specifically, CFR, Title 10, Part 2, Subpart J,20 “Procedures Applicable to
Proceedings for the Issuance of Licenses for the Receipt of High-Level Radioactive Waste at a Geologic
Repository”21 and “Rules of Practice for Domestic Licensing Proceedings and Issuance of Orders,”22 set
forth procedures for an adjudicatory proceeding on the application for the licensee to receive and possess
high-level radioactive waste at a geologic repository.

         Pursuant to these regulations and prior to the DOE’s submittal of their License Application to the
NRC, the NRC requires the DOE ORD to make available relevant information that must be placed into
the Licensing Support Network (LSN), an electronic information management system that was designed
and implemented to provide public access to relevant documentary material.23 The LSN was created in
accordance with Subpart J that requires the DOE to retain all material relevant to the YMP and to certify
that, to the best of the DOE’s knowledge, it has retained this material. The intent of the LSN is to develop
a system to maintain and make available documents relevant to the License Application for public review.

      On November 1, 2004, as part of this document review process, the BSC LSN Archival E-mail
Review Team and project staff discovered approximately 19 USGS e-mails written or received by Hevesi
18
   Ibid.
19
   Ibid.
20
   NRC Regulatory Guide 3.69, Subpart J, “Topical Guidelines for the Licensing Support Network.”
21
   10 CFR Part 2.
22
   10 CFR Part 60
23
   10 CFR Part 2, section 2.1001.
                                                            5
and exchanged among a small number of other USGS employees that spanned the 1998 to 2000
timeframe. Most of these e-mails contained language that created the impression that the QA process
may have been compromised, and/or many falsifications may have occurred.

Inquiry – BSC’s Delay in Reporting the Discovery of USGS E-mails to DOE OIG

       On April 4, 2005, a DOE, OCRWM, ORD, Official directed the Office of Performance
Management and Improvement (OPM&I) Performance Assessment Team to conduct an independent
review to determine when BSC first became aware of the existence of the original 19 questionable
e-mails.

        The OPM&I Performance Assessment Team found that on or about November 25, 2004, the
questioned e-mails were provided to BSC Legal Counsel for review. In early December 2004, the content
of the e-mails was discussed between a BSC Official and BSC’s Legal Counsel. On December 13, 2004,
BSC legal counsel briefly discussed verbally some of the content of the e-mails with the DOE Office of
General Counsel.

        The OPM&I Performance Assessment Team indicated that BSC’s Legal Counsel verbally
informed the DOE Office of General Counsel representative that there may be potential issues with only
the YMP LSN review process and did not inform them of any potential problems regarding the context of
these e-mails that may be adverse to the QA of the License Application to the NRC. He stated that when
BSC’s Legal Counsel telephoned the DOE Office of General Counsel, they did not provide hard copies of
the e-mails and did not read the context of these e-mails over the phone.

        Subsequent to the discussion with the DOE Office of General Counsel, the e-mails were set aside
by BSC’s Legal Counsel until March 9, 2005, at which time they were provided to the BSC Employee
Concerns Program. This Program is designed to ensure that YMP employees have an opportunity to raise
concerns they may have regarding the YMP without any fear of reprisal from other employees and/or
management. The Employee Concerns Program maintains a database that documents the reporting,
investigation, and resolution of the YMP employees’ concerns. On March 9, 2005, a BSC Concerns
Program Official notified a DOE OCRWM Concerns Program Official and senior BSC management of
the existence of the original questionable e-mails.

        The OPM&I review found that the delay in reporting the potential falsification of QA records
discussed in the USGS e-mails was an unintentional oversight and unintentional noncompliance of
reporting procedures, resulting from competing workload priorities and disruption of work during BSC’s
holiday season shutdown. The review determined that each person at BSC with knowledge of the e-mails
had received training, including annual refresher training of the Standards of Conduct and Business
Ethics, Safety Conscious Work Environment, and the Corrective Action Program; however, a Condition
Report was never submitted nor was the issue ever raised through BSC’s management until March 9,
2005, approximately 4 months after the initial discovery of the e-mails.

                                 Details of Investigation
         On March 17, 2005, the DOE OIG received allegations from OCRWM, ORD, regarding alleged
falsifications by Hevesi and other USGS employees assigned to conduct research on the YMP. OCRWM
had identified at least 19 e-mails that contained language that implied Hevesi may have
circumventedYMP QA protocol requirements and/or falsified information or documents related to
computer modeling of the infiltration of water into the YMP repository. OCRWM advised that these
                                                   6
actions may jeopardize the License Application to the NRC to obtain approval to store high-level
radioactive waste.

        Subsequently, in conjunction with the FBI, a joint DOI OIG and DOE OIG investigation was
initiated into specific events and incidents involving the alleged misconduct and possible false statements.
This investigation focused on the content and context of the 19 original questioned e-mails and 7
additional e-mails discovered during our investigation to determine whether or not Hevesi and/or other
USGS employees made false statements and/or produced documents containing false scientific data in
order to intentionally circumvent YMP QA protocol requirements. On March 28, 2005, the United States
Attorney for the District of Nevada was advised of the allegations involving Hevesi. This Report of
Investigation outlines the facts developed during the joint investigation.

DOE Directed E-mail Evaluation and Technical Impact Review

        Upon discovery of the original questionable e-mails, DOE OCRWM management directed BSC
management to conduct an independent evaluation and technical review (TR) of the potential impact the
use of the information discussed in the original questionable e-mails would have on activities related to
the Yucca Mountain Site Recommendation and License Application to the NRC. The evaluation was
conducted by a number of YMP scientists with broad experience in hydrology, performance assessment,
modeling, mapping, data and software evaluation, and natural analogs. The team was managed, in part,
by a Sandia National Laboratories (SNL) Official. Fifteen additional scientists from the YMP contributed
to the draft report, “Evaluation of Technical Impact on the Yucca Mountain Project Technical Basis
Resulting from Issues Raised by the E-mails of Former Project Participants.”

        The SNL Official indicated that the TR was performed to ascertain the effects of the use of
Hevesi’s Infiltration AMR work discussed in the e-mails. The TR found that the work is corroborated by
independently derived data and had been subjected to independent peer and professional review within the
scientific community over the last decade. He said these peer reviews were formal investigations,
conducted under QA procedural controls, designed to seek and receive independent expert opinion on
technical issues described in Hevesi’s e-mails. Additionally, he stated that these reviews found Hevesi’s
work to produce the Infiltration AMR to be technically sound and had no impact to the YMP Site
Recommendation. He advised, however, that while the TR determined that Hevesi’s Infiltration AMR
has been deemed technically sound, it may not be suitable for use in the formal NRC licensing application
proceeding where the procedural aspects of technical work development are of key importance. As such,
he noted that Hevesi’s Infiltration AMR and other questioned USGS employees’ work that was to be
relied upon to support the License Application to the NRC will be remedied or replaced.

Original Questionable E-mails

        For the purposes of this report, we have reproduced the heading and the pertinent substance for
each e-mail at issue as it appears in the original, including misspellings and grammatical errors. In all
instances, we conducted interviews of every individual whose name is contained in the heading of the
e-mail at issue. In several instances, the e-mail at issue follows a series of e-mails on which other
individuals had been copied. Although they may not appear in the heading of the e-mail at issue, to the
extent these other individuals provided relevant information related to the e-mail at issue, we have
included this information in the report as well.




                                                     7
1. E-mail Date: 05/11/1998
   Subject: UZ Flow (+climate+infiltration) section for TSPA-VA document
   From: Joseph Hevesi
   To: Alan Flint
   Cc:

        Hevesi wrote in pertinent part, “FYI. Still don’t know quite how to handle the air temp glitch. I’m
continuing to keep mum about this, but, from a scientific integrity standpoint, it is tempting to let the end
users know exactly what was provided to them in terms of effectivley cooler future climate simulations.
Problem is, I don’t know how to do this without looking bad. If we can let it all pass without trying to
attach DTN numbers to these results (the prefered choice), then I can forget about it and just concentrate
on getting results out for the new model. If they (DOE) force us to put DTNs on these things; I would
rather the truth come out sooner than later.”

         Hevesi explained that in this e-mail, he was communicating a concern to his supervisor, Alan
Flint, regarding preliminary results of a wetter climate scenario. Specifically, he said that he did not know
if the results needed to go through QA because wetter climate scenarios had not been validated as
potential future climate predictions; therefore, no Data Tracking Numbers (DTN) had been assigned to the
preliminary results. He explained that DTNs allow “downstream users” to trace data to their original
sources.

        Hevesi continued to explain that during the development and testing of the software code for the
newer version of the net infiltration model, he discovered a problem in the code and did not know if the
preliminary results could ever be applied to the final product since the preliminary results were generated
as “non-QA” data. He said that this error in the code was generating a loss of precision in the daily air
temperature variable, and in this e-mail he was notifying his supervisor about this error and his intentions
of correcting the error in the newer net infiltration model version.

        Admittedly, Hevesi wrote this e-mail prematurely because he determined the problem was not
with the code but was with the preliminary results that did not include the stream flow or snow fall
calculations for the future climate model; therefore, the preliminary results he was originally concerned
about were not included in his net infiltration model.

         Alan Flint, USGS Supervisory Research Hydrologist and Hevesi’s immediate supervisor, said that
in this e-mail, Hevesi was expressing his concern that if the DOE told him he had to have this data QA’d,
he would not be able to because the data was wrong. He believed that Hevesi was letting him know that
he “screwed up” and was “embarrassed” and was trying to figure out how to fix the problem before the
DOE required that the data be QA’d.

       The SNL Official explained that based on the findings of the TR, it was discovered that at the time
Hevesi made the statements in this e-mail, the YMP was in the “viability” stage of development and he
explained that during this stage, none of Hevesi’s research data was recommended to or relied upon by the
NRC.

        The SNL Official said that it appeared that Hevesi developed a computer software code regarding
Yucca Mountain’s future climate temperatures and evaporation rates and submitted a rough draft after
submitting it to another research group. He said that Hevesi seemed to realize that his analysis was in
error because he discovered a “glitch” or “bug” in his computer software code. According to the SNL
Official, Hevesi realized he made a mistake, was embarrassed, and did not want to admit it because he
was concerned about “looking bad” to his colleagues.
                                                     8
        The SNL Official suggested that although the TR found no evidence to indicate that Hevesi’s
mistake was fixed or that he ever disclosed his mistake to the appropriate people, this error was
considered of little importance to the YMP because this particular research data was not going to be used
as part of the License Application to the NRC. In addition, he advised that the TR found that the context
of this e-mail had no technical impact on YMP and found no evidence that Hevesi or any other USGS
employee falsified information or technical data.

        An SNL Engineer said that all data used in a QA process should have a DTN, which allows the
future user of the data to be able trace the data to their original sources so that the results can be
reproduced. He referenced Hevesi’s e-mail statements and indicated that at the time Hevesi wrote this e-
mail, the YMP QA procedures allowed for the transfer of preliminary data without a DTN, which is why
he did not understand why Hevesi wrote this e-mail in the first place.

        A DOE Official, Office of Licensing and Strategy, OCRWM, ORD, confirmed that at the time this
e-mail was written, researchers from different entities worked together on data collection and
interpretation and shared preliminary results prior to obtaining a DTN.

        Six additional witnesses who had been carbon copied leading up to this e-mail were also
interviewed; however, none of them remember receiving this e-mail and none were able to provide any
additional relevant information.

2. E-mail Date: 06/18/1998
   Subject: Re:
   From: Joseph Hevesi
   To: Alan Flint
   Cc:

      Hevesi wrote in pertinent part, “Its like we’ll get paid twice for the same work (and I don’t feel
bad about this considering how little we’re getting paid for the work this year...)”

         Hevesi advised that during the time period of completing his YMP net infiltration model work, he
felt that it was important to work with the Death Valley Regional Project (Regional Project) modelers.
He said that during this time period, he was working on two projects: the YMP site scale model funded
entirely by the DOE and the Regional Project funded by the DOE and other government entities.

       Both projects were operating at minimal funding levels, and according to Hevesi, this e-mail
proposed that they create another intermediate-sized ground water model. Hevesi advised that the “Forty
Mile Wash” was an intermediary region within the Regional Project model and said that all the work
being done regarding these three projects could be done in parallel and by using “synergetic feedback”
that would allow the project to be funded at lower levels as opposed to obtaining funding for each study.

        Writing this e-mail only to communicate to his supervisor that funding was uncertain for all the
studies, Hevesi admitted that he used “bad wording” when he wrote it.

        Alan Flint said the USGS was trying to obtain funding from the DOE to create a model “of finer
scale” for the YMP than the larger regional model the USGS had already developed under contract from
the DOE. He opined that there was nothing improper being discussed in this e-mail and believed Hevesi
simply felt bad because it was hard for him to conduct research on a model that he did not consider being
his best work.
                                                     9
        A USGS Project Officer advised that Hevesi was not aware of how the YMP funding worked. He
said the research work Hevesi was referring to in this e-mail, which they called the “Forty Mile Wash,”
never received funding, and, as a result, it never occurred. He said the Regional Project model was
funded by a number of different agencies, and during this period of time, Hevesi should have been
working 95 to 98 percent on the YMP net infiltration model final AMR.

        The SNL Official explained that during this time period, the USGS received funding from the
DOE to conduct software development for the YMP and Regional Project water infiltration model
projects. He said the research conducted by Hevesi on these two projects was part in parcel the same,
except the Regional Project was on a much larger scale. He opined that in this e-mail, Hevesi was
commenting on the fact that the DOE was paying him twice because the software development work he
was conducting for these two projects was essentially the same.

       According to the SNL Official, the TR found that the context of this e-mail had no technical
impact on YMP research data and found no evidence that Hevesi or any other employee falsified
information or technical data. He stated, however, that this e-mail raised the “integrity” issue and
believed that from a professional standpoint, Hevesi and especially his supervisor, Alan Flint, should have
made known to the DOE and USGS management that they were getting paid twice to basically conduct
the same research for two different projects.

        A USGS Program Official said time worked on any particular study by USGS employees assigned
to the YMP must be charged to the cost account that it was originally set up for. He advised that one of
the exceptions to this policy was when time worked was charged to an account for which it was not
originally set up for; but, as long as the work being charged was similar in nature or will eventually be fed
into the master project study, the use of the different cost account would be justified. He stated that the
justified use of different cost accounts occurred quite frequently toward the latter part of the fiscal year in
order to account for YMP cost “over-runs” and/or “undercharges.”

3. E-mail Date: 10/27/1998
   Subject: Re: Jury Summons
   From: Joseph Hevesi
   To: Alan Flint
   Cc:

       Hevesi began this e-mail chain by writing in pertinent part, “I’ve been summoned for Jury duty. I
can’t do this. My wife tells me this is not something I can just ignore (my usual strategy).”

       Alan Flint replied in pertinent part, “That’s odd, I have never gotten one. My kid’s must have lost
it when they got the mail and since it wasn’t registered mail there is no way to know that I actually got it.”

       Hevesi replies in pertinent part, “Hey yeah., If its not registered than it can’t be important... So
back to my strategy…”

        Hevesi said he realized that at the time, it was not good for him to take time away from his work
for jury duty. He explained that from October 1998 through April 1999, he was extremely busy because
he was the only one conducting research on the future climate modeling for the YMP. He said the next
set of modelers needed his information, so he did not want the jury duty to impact his work progress.


                                                      10
       Hevesi wrote the initial e-mail in this chain to ask an Administrative Officer and Alan Flint, his
supervisor, for advice, and Hevesi admitted that his e-mail was unprofessional and he regrets writing it.

       Alan Flint indicated that he wrote this e-mail to Hevesi as a joke. He explained that he has always
been annoyed about how jury duty summons are delivered by the county without the use of “registered
mail.” He said that as an example, he explained to Hevesi in this e-mail that if he had received a jury duty
summons in the mail, his children more than likely lost it or his dog ate it, and he would ultimately be
blamed for it.

       The USGS Administrative Officer indicated that she did not remember receiving this e-mail and
could not provide any additional relevant information.

      The SNL Official advised that although the TR found that this e-mail had no technical impact on
YMP research data, it appeared that Hevesi’s supervisor, Alan Flint, was willing to “turn a blind eye” and
seemingly encouraged Hevesi to avoid jury duty.

4. E-mail Date: 10/29/1998
   Subject: Design Features 23/24 – Period of Effectiveness
   From: Joseph Hevesi
   To: [USGS Research Hydrologist]
   Cc:

       Hevesi wrote in pertinent part, “Leveling the top of the mountain seemed humorous but it gave me
the chance to make some more cool figures. This little task is history now. Wait till they figure out that
nothing I’ve provided them is QA. If they really want the stuff they’ll have to pay to do it right.”

        Hevesi explained that he was tasked with a short 2- to 3-week exercise to assist YMP engineers
with a hypothetical model scenario to further reduce the net infiltration rates of Yucca Mountain. He said
the License Application Design Selection project (LADS) “came up out of the blue,” and when his
supervisor handed him this work, he was not sure if it needed to be QA’d because it was only considered
a hypothetical scenario.

        In this e-mail written to the USGS Research Hydrologist, Hevesi said he wanted to convey his
frustration that in order for him to spend additional time for the scenario to be QA’d, he would need
additional funds, time, and resources.

         The USGS Research Hydrologist explained that he thought Hevesi made these statements because
at that time, YMP was experiencing massive budget cuts and Hevesi was attempting to make a point that
the funding was not sufficient to ensure thorough studies were conducted. He said he thought Hevesi
believed that in order for him to do the job “right” by ensuring his work was QA’d, the DOE would need
to provide the USGS with additional funding.

       Alan Flint explained that Hevesi wrote this e-mail without realizing that he was not required to
follow an engineering QA procedure.

        According to the SNL Official, when Hevesi wrote this e-mail, the YMP was still in the “viability
assessment” stage of development and the discussion found within this e-mail was simply an academic
one. He stated that the engineering group and Hevesi’s natural sciences group were discussing different
alternatives available to them in developing and designing the project’s drip shields as part of the LADS
project. Further, he said when Hevesi was making references about them figuring out that his work was
                                                    11
not QA’d, Hevesi did not know at the time this research data did not need to be QA’d. During this time
period, the QA procedures were still in the development stage, and not all of Hevesi’s work was required
to be QA’d.

        The SNL Official suggested that Hevesi’s e-mail statements also illustrated his frustrations that the
USGS was not receiving adequate funding from the DOE to do their net infiltration research and to also
have it QA’d. He believed that Hevesi and Alan Flint were upset because the engineering group was
receiving more funding than they were.

       The SNL Official concluded by saying the TR found that the context of this e-mail had no
technical impact on YMP and found no evidence that Hevesi, or any other employee, falsified information
or technical data.

5. E-mail Date: 11/21/1998
   Subject: beaten to death
   From: Joseph Hevesi
   To: [USGS Project Officer]
   Cc: Alan Flint

       Hevesi started this e-mail chain on November 19, 1998, and wrote in pertinent part, “The 96
model report has been re-submitted for USGS Director’s approval. [A USGS Research Hydrologist] has
been the main force behind dealing with the latest round of editorial reviews and pushing the report
forward…When the Director’s approval is granted, I am assuming the FY96 model will be in the TDMS,
although we may be required to submit additional supporting information.”

        An SNL Engineer continued the chain and wrote in pertinent part, “Can you please check with
[the BSC Official] and [the USGS Project Officer] to better understand the level effort that the USGS will
put forth to have infiltration information submitted to the TDMS this FY?”

        Hevesi wrote in pertinent part, “This was [the SNL Engineer’s] own response to my response to
his question (which I tried to be as honest as possible about), without any intentional provocation on my
part. In some ways this is getting bizarre; one never knows how far along an old memo will get passed…)
I’m paranoid enough now that I almost couldn’t send this.”

         Hevesi explained that he wrote the initial e-mail to express his concern to the SNL Engineer over
the uncertainty of what net infiltration maps to use for site recommendation. He said that he was also
informing the SNL Engineer that additional work was needed to be done on the ‘97 and ‘98 future climate
results, and he was frustrated because the end users of his net infiltration model results were assuming that
he was being funded to do the job “right” and also make sure this work was QA’d.

        He stated that he included the line, “I’m paranoid enough now that I almost couldn’t send this
out,” because he realized he needed to be careful about forwarding attached e-mails.

       Alan Flint said he did not remember receiving this e-mail and could not provide any additional
relevant information.

       The USGS Project Officer indicated that he did not remember receiving this e-mail; however, he
opined that Hevesi wrote this e-mail to him to express his frustration that the SNL Engineer may be
complaining to Hevesi’s supervisors about his inability to submit his work on time to SNL.

                                                     12
       The SNL Engineer indicated that he does not remember receiving the initial e-mail and could not
provide any additional pertinent information.

        The SNL Official explained that the USGS and DOE work product approval process was very
different because the USGS’ was more time consuming and the DOE’s was much more streamlined and
time efficient. He stated that before a USGS document can be released to the DOE YMP, the USGS
Director had to approve it. This process caused stress and frustration among USGS researchers because
they had a difficult time complying with the DOE YMP deadlines.

        In the SNL Official’s opinion, Hevesi wrote this e-mail to express his anger and dismay toward
the SNL Engineer. Apparently, the Engineer complained about Hevesi’s inability to submit his work on
time, even though the Engineer was aware that Hevesi’s submission delays were uncontrollable.

       The SNL Official commented that the TR found the context of this e-mail had no technical impact
on the YMP and found no evidence that Hevesi or any other employee falsified information or technical
data.

6. E-mail Date: 12/18/1998
   Subject: Re: AP 3.10Q
   From: Joseph Hevesi
   To: Alan Flint
   Cc:

        Alan Flint began this e-mail chain and wrote in pertinent part, “…We only win if we get the final
product out… The bottom line is forget about the money, we need a product or we’re screwed and will
take the blame. EVERYBODY will say they told us to go ahead without a plan or budget in place… This is
now CYA and we had better be good at it. I seem to have let this one slip a little too much in an attempt to
cover all our work (and get us the hell out of the long term problem of Yucca Mountain), but now it’s
clear that we have little to no choice. In all honesty, I’ve never felt well managed or helped by the USGS
YMP folks, in fact, as you know, I’ve often felt abandoned...”

         Hevesi responded in pertinent part, “…YMP is looking for the fall guys, and we are high on the
list. I got a strong feeling at the PA meeting that high level folks are starting to pay very close attention to
who they will come after when things hit the fan. Who got how much funding at what time will all be long
forgotten when the lawyers start challenging credibility of results. It was made clear that this will be like
the OJ trial, where the results are completely thrown out because of minor procedural flaws or personal
attacks on credibility….”

         Hevesi explained that he wrote this e-mail as part of an ongoing discussion with his supervisor
concerning his final net infiltration modeling work and being able to get his results QA’d before the April
1999 deadline imposed by the DOE. He said he was concerned that the “whole thing would fall apart”
because of the new rules and procedures being imposed by QA. He admitted that he was stressed out
because of the April 1999 deadline and knew that he would not be able to QA this work before handing it
off to the next modeling group.

       During this time, Hevesi claimed that the YMP was “downsizing” and reduced the amount of
funds available for his net infiltration modeling work. Frustrated and concerned, Hevesi said he never
received a clear understanding from the USGS management of where the funding was going to be coming
from, and that is why his e-mail was so pessimistic about getting his work QA’d.

                                                      13
        Alan Flint commented that this e-mail was another example of Hevesi focusing on an extreme
detail that created unnecessary problems. In this e-mail, he was telling Hevesi to let him (Alan Flint)
worry about the funding and for Hevesi to only worry about getting his final work product completed.

       The SNL Official opined that Alan Flint wrote this e-mail to explain to Hevesi that they were in a
major bind and he believed they were being abandoned by the USGS. He believed that Alan Flint and
Hevesi panicked because they thought they had no support to complete their work and as a result, became
paranoid about the possibility of losing their funding in order to continue their YMP research. He also
opined that Alan Flint’s poor management of money and subordinates caused much of Alan Flint’s and
Hevesi’s paranoia and frustration.

        The SNL Official concluded that Hevesi’s e-mail statements were in response to Alan Flint’s e-
mail mirroring his opinion about the DOE YMP complaints concerning them and that they believed they
would lose their funding to SNL, who would take credit for their work. He indicated that Alan Flint’s and
Hevesi’s paranoia was unwarranted and explained that the majority of the project’s staff simply wanted to
get the job done, not take credit for somebody else’s work.

       According to the SNL Official, if Alan Flint had gone through the proper channels and formally
requested additional funding and support staff, he more than likely would have received it. He stated that
the DOE YMP fully understood and were aware of the challenges the USGS faced working on the YMP.

        The SNL Official explained that another reason Hevesi’s and Alan Flint’s e-mail communications
expressed such a pessimistic and paranoid attitude and why they made e-mail statements such as
“becoming the fall guys” was because a few weeks before this e-mail was written, both of them received
training by DOE lawyers explaining the scrutiny that they would face regarding their research during the
license application process. He stated that the lawyers stressed to them that any excuses by the
researchers of having inadequate resources and funding during any type of litigation by YMP opponents
would be forgotten despite the truth of the matter.

       He opined that the “reality” of the situation had become clear to Hevesi and Alan Flint that their
research would have to be defensible against the NRC, and their excuse for not being able to follow QA
protocol requirements because they lacked proper funding and resources would be unacceptable.

     He stated, however, that the TR found that the context of these e-mails had no technical impact on
YMP and found no evidence that Hevesi or any other employee falsified information or technical data.

7. E-mail Date: 03/15/1999
   Subject: Re: Tiger Team Hell
   From: Joseph Hevesi
   To: [USGS Research Hydrologist]
   Cc: Alan Flint

        Hevesi wrote in pertinent part, “….Now, I’m going to give you the inside scoop: I’m going to
continue the regional modeling, even if it means ignoring direct orders from YMP management. I’m also
going to be working on reports, even if it means ignoring direct orders from YMP management. Alan and
I have a pretty clear vision of the type of work that needs to be done to stay alive for the long-haul, and it
very definitely involves getting product out there for the users and the public to see. The Death Valley
regional modeling work fits that bill. Screwing around with tiger teams does not…So, the work may be
slowed, but I will not let it stop. At this point, I am still working to the plan that we’ve all spent a
significant amount of time on to make things happen for FY99… So delete this memo after you’ve read it.”
                                                         14
        Hevesi explained that he wrote this e-mail during the period of time he was making sure the
technical work he gave to the Unsaturated Zone modelers was completed and QA’d. He said he had to go
back to concentrating on the Regional Project. He said he knew he had to do QA work for YMP and he
was receiving funding for it, but he was also doing work on the Regional Project. He stated that the
“Tiger Teams” were QA audits. He said he thought that the two groups assumed that each had his
expertise 100 percent of the time, but it was not so. Hevesi said he had a flawed perception for a block of
time.

        Reportedly, according to Hevesi, this e-mail was a discussion with the USGS Research
Hydrologist regarding Hevesi’s personal career concerns. Hevesi said the work he was doing for the
Research Hydrologist was “within his general goal to transition out of the YMP work.” He stated that his
transfer to the USGS office in Sacramento, CA, was still uncertain and that as a scientist, it is important
that he “publish” a research paper that is released to the public in order to be able to further his career.

       Hevesi saw the Regional Project model research as a career opportunity, and he did not know
everyone would be reading this e-mail. He said he made the statement requesting the Research
Hydrologist to “delete the memo after he reads it” because he thought it was personal correspondence and
he incorrectly assumed that deleting this e-mail would remove all records of it.

         The USGS Research Hydrologist did not recall receiving this e-mail; however, he stated that most
of the time, he ignored Hevesi’s e-mails because they became more of a way to communicate his
complaints about how much he disliked the QA protocol requirements and being assigned to the YMP.
He said the only time he needed to communicate with Hevesi was when his group paid Hevesi’s group to
conduct research regarding re-charging calculations, which was to be used as part of his Regional Project
model.

         Alan Flint explained that the “Tiger Team” was a QA audit group that evaluated YMP research
work. He said that the “Tiger Team” would use his group to perform certain work and he believed that
Hevesi’s e-mail statements illustrate his unwillingness to work on the “Tiger Team” audit projects.
According to Alan Flint, Hevesi probably wanted this e-mail deleted because Hevesi stated in this e-mail
that he “planned to ignore direct orders from YMP management” and he did not want YMP management
to see it. He did not understand what Hevesi meant since he was considered YMP management and
Hevesi sent this e-mail to him.

       The SNL Official advised that the TR found no evidence that YMP supervisory management had
any authority over Hevesi and that YMP management had not corresponded with Hevesi over this matter.
He concluded that Hevesi was referring to his work on the Regional Project and it is inconceivable that
the USGS Project Officer did not know about the work Hevesi was working on. He stated that Hevesi
was basically admitting to his own supervisor that he was going to ignore his orders.

       According to the SNL Official, the TR found that the context of this e-mail had no technical
impact on YMP and found no evidence that Hevesi or any other employee falsified information or
technical data.

8. E-mail Date: 03/26/1999
   Subject: Status of LADS phase 1 calc. report – USGS
   From: Joseph Hevesi
   To: Alan Flint
   Cc:
                                                15
        A Lawrence Berkeley National Laboratory (LBNL) Official initially began this e-mail chain by
writing in pertinent part, “On Feb. 19 I requested the following steps from USGS staff, to complete the
calculation report for LADS DF23A and B (formerly designated DF 23 and 24): 1. Train J. Hevesi and a
checker to QAP 3-15. Train [BSC Engineer] to YAP SIII 3Q. Also, train J. Hevesi to APSI.1Q, for
classification of software as “software routines.”…3. Designate all software used in this calculation as
“software routines.” This means the software does not have to be qualified.”

       Hevesi wrote to Alan Flint in response in pertinent part, “…My work gets charged to 11016 and
22001… I’ll admit that I have not devoted a full-time effort towards LADS…. The skills I am interested in
developing are the ones that will benefit the CA district and our careers…I guess this is another one of
those memos that need to be destroyed.”

        Hevesi explained that he wrote this e-mail as part of an ongoing discussion with Alan Flint
concerning the LADS project, regarding the different alternatives available to them in developing and
designing drip shields. He pointed out that performing QA was not part of the original work and the
additional time that it was going to require for this work to be QA’d was not funded. He said he did not
have time under the given tight schedules to QA this work, and this e-mail was his way to “vent” his
frustrations to Alan Flint.

        According to Hevesi, the LBNL Official provided instructions to the USGS Project Officer
regarding the LADS work to have him trained on being a “checker or reviewer” because he was the
person who wrote the codes to process results and to run the model. He advised that the codes are
supposed to go through QA procedure and that he was not sure whether or not this QA work was funded.
At the time he wrote this e-mail, he believed that the Infiltration AMR work that had been initiated in
1999 was more of a priority than the LADS work.

       Hevesi requested that Alan Flint destroy this e-mail because he wanted the e-mail to remain a
confidential correspondence.

        Alan Flint said he did not remember receiving this e-mail; however, he opined that this e-mail was
another example of Hevesi explaining to his supervisor his frustrations about spending more time
qualifying his work than conducting actual research.

       The USGS Project Officer advised that Hevesi did not know anything about the budgeting of the
USGS and YMP, and he believed that Hevesi was simply “running his mouth” about something he did
not know anything about, which he said occurred quite frequently.

      The BSC Engineer advised that she does not remember receiving an e-mail on this matter;
however, she said that she more than likely was copied because someone revised a QA procedure and
wanted her to be informed of it.

        A BSC Official said this e-mail was a discussion by the LBNL Official regarding the problem of
getting Hevesi’s net infiltration model to a Q “pedigree.” He believed that before other end users could
use Hevesi’s net infiltration data, it had to be QA’d. He explained that the LBNL Official attempted to
separate information in the net infiltration model between what was and was not QA’d, and also to
separate the computer “routines,” which did not have to be QA’d, from the computer software that had to
be QA’d.


                                                    16
       Although he could not remember what LADS meant, the BSC Official did remember that all of
LADS was not initially scheduled to be QA’d. He believed that this e-mail only demonstrated that
Hevesi’s concern was his career and the USGS California District work, not the YMP.

        The LBNL Official said the LADS study was developed from qualified data, as well as
unqualified data. He explained that it is extremely difficult to determine whether or not a piece of work
from the LADS study was required to be QA’d during a specific time period because it had numerous
revisions and “rough drafts.”

       The LBNL Official stated that he wrote this e-mail to the USGS Project Officer requesting that he
provide additional QA training for Hevesi and Alan Flint to assist him in ensuring that they understood
the new QA procedure, AP-SI1Q. During this period of time, the LBNL Official said Hevesi seemed to
be having difficulty in completing his part of the LADS study, and he took this extra step because he
needed Hevesi’s input in order for him to complete his part of the study.

         The SNL Official advised that Hevesi’s e-mail statements were referring to an academic
discussion that was described in the October 28, 1998 e-mail (#4 above) between Hevesi and the project’s
engineers regarding the LADS work pertaining to the development of alternatives to reduce water
infiltration. He said the LBNL Official asked the USGS Project Officer to have Hevesi complete
numerous tasks, such as QA training, and to conduct research on LADS. He stated that this e-mail is
Hevesi informing Alan Flint that he does not care what the LBNL Official wants him to do and he has
decided that the California District research, unrelated to the YMP, was more important to him and his
career.

       The SNL Official explained that the TR identified 22001 as the Regional Project modeling
account; however, 10016 budget accounts could not be conclusively identified as YMP accounts. Based
on Hevesi’s e-mail statements, the SNL Official said Hevesi is implying that he may be conducting work
on the California District research, yet claiming this time as being worked on the YMP. However, the TR
found that the context of this e-mail had no technical impact on the YMP and found no evidence to
conclude that Hevesi falsified time charged to the YMP budget.

9. E-mail Date: 04/22/1999
   Subject: QA
   From: Joseph Hevesi
   To: Alan Flint
   Cc: [USGS Research Hydrologist]

        Hevesi wrote in pertinent part, “The QA bullshit grows deeper...The program I wrote is not in the
system and QA will be all over it like flies on &%#$. All references to [the USGS Geologist] are being
deleted. Here’s my question: When we go to start QA’ing the site-scale modeling work, will I get taken to
the cleaners because I am not referencing either a tech procedure or a scientific notebook? In other
words, would it be cost-effective to create a SN for the site-scale work and back-date the whole thing??
Can’t wait to be far- far away from here!”

        Hevesi explained that he wrote this e-mail to his supervisor because he was unclear if he would
need a scientific notebook (SN) and was unsure of how to continue with the QA documentation of his
future climate net infiltration maps. He described the SN as a handwritten diary of the work he was
performing that was supposed to be placed in a hard-bound notebook.


                                                    17
        Hevesi said all of his input and output codes were maintained on compact disks along with the
dates when they were created. Hevesi claimed that in this e-mail, he was referring to the dates when the
work was actually done and did not intend on “back-dating” the file dates or actual entries in the SN. He
said that he fully intended on recording the dates when the work occurred and had originally saved it to
disk.

        Hevesi said he knew that the software QA would be required once he finalized writing the code,
but it was unclear at the time whether a technical procedure or an SN would be required. He admitted that
his choice of words in this e-mail was inappropriate.

        A review of Hevesi’s YMP training transcripts found that Hevesi successfully completed the SN
training course, “QA98005 Control & Use of Scientific Notebooks,” on January 26, 1999.

       Alan Flint said Hevesi’s statement regarding back-dating dates for the SN was silly and he
probably called him on the telephone after receiving this e-mail to explain to him that he did not need to
“back-date.” He explained that his group did not have an SN for their work on the YMP at the time this
e-mail was written and said they were negotiating with the DOE to use Hevesi’s net infiltration model’s
AMR as the SN instead. He did, however, indicate that they eventually started to maintain an SN for their
water balance study.

        Alan Flint also explained that the USGS had a procedure that allowed them to collect data for 30
days if it could be irretrievably lost before starting an SN. He stated that this policy did not apply to this
situation described in this e-mail, in which Hevesi was proposing to “back-date” for work that was
already started.

       The USGS Research Hydrologist explained that this e-mail was probably written prematurely
because more than likely, the software program Hevesi was referring to was eventually QA’d. She said
Hevesi never told anyone anything incorrect and said all data submitted by Hevesi had to go through the
QA system. The USGS Research Hydrologist insisted that if he had submitted non-QA research, it would
have eventually been discovered by QA.

        A BSC QA Official said Hevesi’s net infiltration model’s AMR was the only one without an SN,
which was a requirement in his AMR’s Development Plan. He indicated that an SN, the one Hevesi was
referring to in this e-mail, was supposed to be used to document information that was in the Infiltration
AMR and to aid an individual other than the original author in reproducing and tracing the work
represented in the AMR.

        He explained that there are nine Performance Model Reports that feed into the Total System
Performance Assessment, which drives the License Application. He determined that the Unsaturated
Zone group, the group to which Hevesi was assigned, had 24 models and that Hevesi’s Infiltration AMR
was selected to be audited because it was significant and critical to the Unsaturated Zone Performance
Model Report. He believed that Hevesi’s AMR was selected because he should have been further along
in his research than the other models in the Unsaturated Zone group. The audit took place January 10,
2000.

        According to the BSC QA Official, this audit was conducted to evaluate the effectiveness of the
AMR process and was conducted by the DOE’s Quality Assurance Division. Based on this audit, they
identified seven deficient conditions, which resulted in the issuance of five Deficiency Reports and two
Deficient Conditions that required only remedial actions. The Deficiency Reports and Deficient
Conditions were issued for ineffective implementation of software controls (4), use of unqualified
                                                     18
software (1), inadequate documentation to support verification of software macros and routines (1), and
failure to maintain an SN (1). The AMR’s Development Plan stipulated the requirement of maintaining
an SN and stated, in part, “SN will be used in accordance with AP-SIII.1Q to document the development
of this model.” The document bears the signature “Joseph Hevesi” dated November 3, 1999.

       Hevesi’s Infiltration AMR failed the audit, according to the BSC QA Official, who also stated in
his overall assessment that Hevesi’s net infiltration model’s AMR was “shoddy workmanship” and that
the USGS employees assigned to the YMP were neither adequately trained nor using the right procedures.
He stated that after corrective actions resulting from this audit were taken by the USGS, such as providing
additional training to the USGS staff and changing the Development Plans requirement for the use of an
SN, Hevesi’s Infiltration AMR was re-checked and found to be acceptable based on the fact that his work
was traceable, retrievable, and defensible.

        The BSC QA Official said Hevesi’s deficiencies were brought to the attention of the USGS
Project Officer. He claimed that it was this individual’s responsibility to respond to the audit findings and
provide corrective actions. The BSC QA Official said this individual accepted the fact that Hevesi did not
maintain an SN and stated that, based on the procedures in place at the time, Hevesi’s Infiltration AMR
could serve as the SN.

        The USGS Project Officer was asked what his responsibilities were when an “audit” was
performed on a USGS AMR, and he explained that his overall responsibility was to supervise the USGS
and support personnel to ensure that any deficiencies identified in the audit’s Deficiency Reports were
corrected and remedied. When asked about Hevesi’s Infiltration AMR QA audit, he said this audit
pertained to Hevesi’s net infiltration model AMR and he remembered it having major problems that were
reflected in the audit’s final Deficiency Reports.

        The USGS Project Officer believed that Hevesi should have known that he had to maintain an SN
for his AMR because he had participated in the YMP-sponsored SN training. He said he probably did not
talk to Hevesi about his failure to maintain an SN since, to the best of his knowledge, Hevesi did not
falsify any research data.

        In order to satisfy his responsibility for correcting the deficiencies identified in the Deficiency
Reports, the USGS Project Officer stated that he revised the Development Plan that Hevesi signed on
November 3, 1999, and removed any reference for the requirement of maintaining an SN since the AMR
itself would provide the same level of detailed documentation necessary to support Hevesi’s research
work.

         On July 31, 2000, the BSC QA Official indicated that the DOE Office of Quality Assurance
accepted the USGS Project Officer’s proposal to revise the Development Plan related to Hevesi’s
Infiltration AMR, to remove the SN requirement and utilize the Infiltration AMR itself to satisfy the SN
requirement.

       Hevesi was always trying to improve his work even though he was not required to, according to
the USGS Project Officer. In hindsight, the Project Officer said he should have had more supervisory
oversight of Hevesi and Alan Flint during the time period they were assigned to the YMP.

         The USGS Project Officer explained that one of the first corrective actions he implemented, after
the Deficiency Reports regarding Hevesi’s Infiltration AMR were issued, was to provide Hevesi and Alan
Flint with additional QA training on the specific issues the Deficiency Reports identified. He indicated
that in retrospect, he would have made certain better communication was established between Alan Flint,
                                                     19
Hevesi, and himself during the time period this e-mail was written. He believed the Deficiency Report
findings were the end result of a communication breakdown between Hevesi, Alan Flint, and himself.

        Hevesi’s and Alan Flint’s attitudes were generally good during the time period they were assigned
to the YMP, the USGS Project Officer recalled. However, when he had to relay problems or concerns, he
preferred that Alan Flint deal directly with Hevesi because Alan Flint was more effective in
communicating with Hevesi. The Project Officer said Hevesi had a tendency to be “over-reactive” when
he disagreed with someone. He said that both Hevesi and Alan Flint were very vocal about their
frustrations and concerns pertaining to USGS funding, management, and the constant YMP QA protocol
changes. He said he responded to their concerns by listening and allowing them to “vent” because most
of their concerns were beyond his control.

       The SNL Official explained that since its inception, the YMP QA Program had conducted routine,
independent audits of completed and in-process work. He said detecting and correcting basic failures to
comply with QA protocol requirements, either by intentional avoidance or by unintentional omission,
were the primary purposes for performance audits.

         In January 2000, an audit was conducted that included Hevesi’s net infiltration AMR “rough
draft,” the SNL Official recalled. He said that during this audit, Hevesi was unable to provide an SN from
this AMR. He said the TR found that Hevesi and other USGS researchers never maintained an SN for
most of their YMP work.

        According to the SNL Official, Hevesi’s Infiltration AMR QA audit was completed on March 6,
2000, and it identified numerous deficiencies. He said the audit’s findings resulted in Deficiency Reports
to which the USGS developed corrective actions. The corrective actions identified the root causes of
Hevesi’s audit failures, which were that Alan Flint and Hevesi did not understand the significance of all
the requirements in the YMP QA procedures and they felt overwhelmed by the continuous changes in
development of the YMP QA procedures.

        In addition, he stated that the TR found that even though Hevesi discussed in this e-mail the
possibility of falsifying information by “back-dating” his SN, there was no evidence to indicate that he
had. The SNL Official continued that the context of this e-mail had no technical impact on YMP and
found no evidence that Hevesi or any other employee had falsified information or technical data.

10. E-mail Date: 04/22/1999
    Subject: re: QA
    From: Joseph Hevesi
    To: Alan Flint
    Cc: [USGS Research Hydrologist]

       Alan Flint initially wrote in pertinent part, “What if you just download the raw files from Earthinfo
and say you used those? Do they need to know any more than that? You don’t really need to do an
analysis just say this is the data I used. Maybe that would work.”

      Hevesi responded in pertinent part, “Not a bad idea. I am now considering it….At any rate, its a
damn shame to be wasting time with this sort of thing.”

       Hevesi said EARTHINFO is a publicly available database that maintains climate data and anyone
from the public can purchase this database “over the counter” and obtain this information. He explained

                                                    20
that any data package put together from EARTHINFO would be QA’d, that the data he was inputting
never got changed, and that he remembers being very careful about not changing any information.

       Alan Flint advised that Hevesi focused on “extreme detail.” He said for example, Hevesi would
spend a week to get one number of an equation correct. He said this e-mail was a response to Hevesi’s e-
mail regarding a problem that he was over-analyzing.

        The USGS Research Hydrologist said Hevesi used the EARTHINFO program to fill in gaps in the
EARTHINFO export files and that QA would have found out if Hevesi wrongly claimed to have used
“raw” EARTHINFO files. She explained that Hevesi was being asked for products faster than he could
get software programs approved by QA. She opined that her USGS group moved fast on its modeling
research and did not keep track of things as well as it should have; however, she indicated that all YMP
data was tracked very well.

        The SNL Official believed that Alan Flint’s e-mail statement to Hevesi was to assist him in
figuring out ways to circumvent QA procedures. He explained that this e-mail was another example of
the “culture” that had developed between Alan Flint and Hevesi, which gave the appearance that they did
not understand the importance to adhering to the QA protocol requirements.

         What was more distressing about this e-mail, according to the SNL Official, was the fact that Alan
Flint, a USGS manager, encouraged and discussed the best ways to circumvent a QA procedure. He
reiterated that this was the type of behavior and “culture” that the NRC was most concerned about
regarding the statements made in these e-mails.

        Nevertheless, he indicated that the TR found that the context of this e-mail had no technical
impact on the YMP and found no evidence that Hevesi or any other employee actually followed through
and falsified information or technical data.

11. E-mail Date: 04/22/1999
    Subject: status of new climate net-infiltration modeling
    From: Joseph Hevesi
    To: [USGS Geologist]
    Cc:

        Hevesi wrote in pertinent part, “…The error was minor but would have created a QA nightmare
so this was fixed and the simulations are being re-done… I am about to submit a “developed
datapackage” milestone consisting of the climate input files (7 files for the 7 sites you identified) that are
being used by the net-infiltration model… Here’s the weird news; to get this milestone through QA, I must
state that I have arbitrarily selected the analog sites… the message I am getting from QA is that I can’t
use or refer to those results…So for the record, the seven analog sites have been arbitrarily (randomly)
selected. Hopefully these sites will by coincidence match the sites you have identified.”

       Hevesi explained that he wrote this e-mail to the USGS Geologist to express his frustrations
regarding the new YMP QA program being in a “state of flux” because he could not reference the
Geologist’s research regarding potential future climate scenarios because it was not complete and had not
been QA’d and given a DTN. He said that in order for him to have been able to reference the Geologist’s
work, he had to “pretend” that they completed the work separately.

        The USGS Geologist provided precipitation and air temperature data that he gathered from sites
across the country that have, or have had, similar climates to the YMP. Hevesi said that because the data
                                                      21
was not QA’d yet, in order for Hevesi to use this research, he believed he had to tell QA that he
“randomly selected” the sites that the Geologist chose. Hevesi said his statement, “hopefully these sites
will by coincidence match the sites you have identified,” was simply a sarcastic remark and his way of
informing the Geologist that he did not intend to take credit for his work.

         Hevesi wrote this e-mail after he found an error and was in the process of re-running his results
after fixing the error. He said he did not need to involve QA because he still had time to fix the error
before it became a final product.

       According to Hevesi, this e-mail was intended only for the USGS Geologist because he was
“confiding with one researcher to another” to inform him that he corrected a minor problem in time.

       The USGS Geologist said this e-mail illustrates that Hevesi was having a difficult time selecting
seven analog sites because QA had not yet approved his new “climate” data and he was unable to use it.
He said this was an example of the problem Hevesi faced on a daily basis of not being able to use the
most recent data available to him because the process of “qualifying” his research data was too slow and
always behind schedule.

        Alan Flint said it did not make sense to him why Hevesi made the statement regarding “randomly
selecting the sites.” He believed that it could be Hevesi’s way of saying he has this data and he thought
he was supposed to “randomly select the data” he was going to use for his model. He stated that the
decision on what data were going to be used for the YMP was the USGS Geologist’s, not Hevesi’s. Alan
Flint recalled many times Hevesi would come to him about a problem, thinking he was doing something
wrong, and he would have to explain to Hevesi that what he was doing was correct.

        Alan Flint did not think Hevesi ever tried to hide anything or intentionally do anything wrong. He
said that all USGS staff knew their e-mails were part of the official record.

        According to the USGS Research Hydrologist, this e-mail was Hevesi expressing his frustrations
to the USGS Geologist that he would not be able to give the Geologist the credit he deserved for the work
he did.

       The USGS Project Officer stated that he did not have a clue what this e-mail meant because he
thought the data provided by the USGS Geologist could be used to estimate hotter to cooler climates that
would be relative to the YMP. He said he did not understand why these site stations needed to
“randomly” be selected and opined that Hevesi was confused and, as usual, over-reacting before finding
out ahead of time what was the proper method or procedure.

       The SNL Official explained that the statements made by Hevesi in this e-mail implied that he was
going to lie about randomly selecting the analog sites and simply use the sites the USGS Geologist
provided him. He concluded, however, that the TR found that there was no evidence to show that Hevesi
was required to randomly select these sites and that Hevesi erroneously believed this was a requirement.

       He believed that Hevesi was frustrated that QA requirements prevented him from using the “best”
science available. The SNL Official said the “best” science can be used, as long as it satisfied QA
protocol requirements.

       The TR found that the context of this e-mail had no technical impact on the YMP and found no
evidence that Hevesi or any other employee falsified information or technical data. The only concern that
the TR identified regarding the context of this e-mail, according to the SNL Official, included references
                                                     22
by Hevesi that he considered lying and falsifying information to circumvent what he believed to be a QA
requirement.

12. E-mail Date: 08/05/1999
    Subject: Re: SN-0116
    From: Joseph Hevesi
    To: [USGS Research Hydrologist]
    Cc:

       The USGS Research Hydrologist initially wrote in pertinent part, “Piss on QA, how’s your
recharge report (due Aug 31, 1999) coming.”

         Hevesi replied in pertinent part, “…I’ve been boggled down with the Yucca Mt. site-scale AMR
stuff which includes all the software QA. [The USGS Project Officer] has put a high priority on the
deliverables for both the site and regional work so I’m burning the candle at both ends. The good news is
that I’ll be a lot more productive in Sacramento. The bad news is that my productivity has been real bad
the past month or two with all this moving and house buying crap…Hopefully the proposals for the NTS
work (the stuff we sent [title unknown, name redacted,]) will go thru and then we’ll be doing some serious
leveraging of resources for FY00….”

         Hevesi explained that the USGS Research Hydrologist was involved with the modeling effort and
that at the time he wrote this e-mail, he had relocated to the USGS office in Sacramento, CA. He
admitted that he had a flawed perception that his managers were not communicating with each other and
believed that he was supposed to work on both the Regional Project model and the YMP net infiltration
model full time.

        He advised that he spent more time and effort on his YMP net infiltration work than he originally
anticipated because of the increased QA workload and explained that the phrase “leveraging” referred to
the benefits that would occur among research models if an intermediate model was ever developed. He
said, in other words, model improvements at one scale could easily be applied to the other scales, thus
benefiting both models.

      According to Hevesi, when the USGS Research Hydrologist made the statement, “Piss on QA,” he
was expressing his frustration that as scientists, they need to get “reference-able” documents to the public
and QA was no help to him since it produced double work for them to do.

        The USGS Research Hydrologist explained that Hevesi was supposed to provide him with a report
regarding recharge research work to be used for his Regional Project model. He said Hevesi was
constantly requesting time extensions that he had set for Hevesi to provide him this information. He
stated that Hevesi told him that the QA procedures were slowing his progress on his recharge work and
that he would once again be unable to meet the deadlines set for him to submit the final report. The
Research Hydrologist explained that he made the statement, “Piss on QA,” in response to Hevesi’s e-mail
explaining to him why Hevesi could not meet his deadline for the fifth straight time.

       The USGS Research Hydrologist claimed that he never had a problem with satisfying the YMP
QA requirements and believed that they were necessary to ensure sound science. He further indicated that
he had implemented many of the same QA procedures in his own business because he felt so strongly
about the QA procedures’ effectiveness.


                                                    23
        The SNL Official explained that the USGS Research Hydrologist only wanted the Regional
Project work that he paid Hevesi’s group to do, and he was telling Hevesi in this e-mail, “Piss on QA,”
because QA protocol did not need to be satisfied in order for Hevesi to provide him with the work.

        The SNL Official claimed that this e-mail illustrated that Hevesi understood the importance of
YMP QA requirements by informing the USGS Research Hydrologist that he had to both QA his site
scale research and at the same time work on the Regional Project that did not require QA.

       Again, the SNL Official noted that the TR found that the context of this e-mail had no technical
impact on YMP and found no evidence that Hevesi or any other employee falsified information or
technical data.

13. E-mail Date: 11/15/1999
    Subject: Thanks for the cool refs.
    From: Joseph Hevesi
    To: Alan Flint
    Cc: [USGS Research Hydrologist]

        Hevesi wrote in pertinent part, “…Don’t look at the last 4 lines. Those lines are a mystery that I
believe somehow relate to the work [title unknown, name redacted,] was doing in entering the 1994 data..
These lines are not used by MARKOV (we stop at 9/30/94). I’ve deleted the lines from the “official” QA
version of the files (which do have headers). In the end I keep track of 2 sets of files, the ones that will
keep QA happy and the ones that were actually used….”

        Hevesi explained that the MARKOV program was used to calculate the parameters for the daily
precipitation model, and the files he referenced in this e-mail were records of daily precipitation measured
at Nevada Test Site stations. The PARADOX database, according to Hevesi, was used to store climate
records from multiple stations, and when he exported data from PARADOX, he noticed the extra lines
and data values at the end of these files, but the dates were not used because they were invalid. He
indicated that these dates were future dates and the MARKOV program had been set to ignore data
beyond September 3, 1994. He explained that he deleted the lines because they were of no use to his
model and he did not want to confuse QA.

        Accordingly, the data in the “two sets of files” mentioned in his e-mail were identical; the file
formats were not. He said QA told him to only submit data that were actually used as input data, but he
saved the files twice so that he could always regenerate the results. He explained that a “header” is an
identifier or legend, which QA required for “column-formatted” files.

        During this time period, Hevesi claimed that his computer software program was unable to read
the “header” and he admitted that he did not want to rewrite the code in order for his computer program to
be able to read it, so he decided to delete it because of time constraints. He emphasized that he never
falsified the data inputs, and his method of dealing with the “headers” did not affect any of his research
data.

        Alan Flint said the QA staff responsible for computer program software required the USGS to
insert “headers,” identifying the year, month, day, and amount of precipitation above each column. He
stated that the program Hevesi was using could not process the data once these “headers” were added
because the software program was expecting to find data and would stop running when it got to the
“headers.” He claimed that the USGS was not allowed to alter the software program to fix the problem,
as the software had already gone through the QA process. He stated that in order for the data to be
                                                     24
processed correctly, Hevesi would have had to remove the “headers.” Alan Flint said this problem still
exists today for SNL and before they process this data using this software program, they must remove the
“headers.”

        Referencing Hevesi’s statements of “I’ve deleted the lines from the official QA version of the
files,” Alan Flint said these lines came from software the USGS was using called PARADOX, which
added some extra characters at the end of the data set. Alan Flint described these extra characters as
“mystery language” and said these characters were not part of the data used for Hevesi’s analysis.

       The USGS Research Hydrologist indicated that if someone prints out a document from a database,
it becomes a QA record, and QA required “headers” on these print-outs. She said that if these “headers”
were left in the software program when it was processed, the software program would not run properly.
She stated that the program Hevesi used in this instance could not read the data if it contained the
“headers.” She believed that since the software program was already approved by QA, rather than rewrite
the program to work with the “headers,” Hevesi simply created another set of files that did not contain the
“headers,” so one set of files had no “headers” and the other set of files was given to QA.

       She also believed that Hevesi’s e-mail statements regarding “deleting lines” were referring to
“garbage language” that is occasionally created by software programs that does not get read by the
program, and Hevesi was simply deleting this “garbage language.”

        The USGS Project Officer said Hevesi did not have to create two sets of files because all he had to
do to fix the “header” problem was to make one file that had the “headers” and send it to the QA
Specialist to have it QA’d. He believed that Hevesi got lazy and sloppy and would rather create two files
in order to not have to deal with QA.

        The SNL Official explained that the TR determined that Hevesi violated QA procedure when he e-
mailed data files as two text files to Alan Flint. He stated that there were QA procedures for transferring
these types of files and using e-mail is not one of them.

        According to the SNL Official, Hevesi knew that if the QA division saw the last four lines that
Hevesi indicated were “unknown,” they would have questioned him about them. He indicated that QA
protocol dictates that you do not submit work unless you can defend it and that Hevesi should have spent
more time figuring out what exactly the four “unknown” lines meant before submitting this “completed”
work to anyone. Hevesi should not have created two sets of files, one with headers and one without, in the
SNL Official’s opinion. He said the TR determined that by creating two sets of files, one for QA’s use
and another for his own research, Hevesi has violated QA procedure. He said this is a QA procedure
violation because Hevesi did not provide QA with the file that he actually used in his research. He said
QA has to be provided with the only “working” file. He opined that Hevesi should have done a little
more work and figured out how to explain the information with “headers” and run the program at the
same time in order to be able to provide QA with the only “working” file. In addition, he indicated that
Hevesi failed to produce an SN during this work to explain where and how he got all of his scientific data.

       The SNL Official concluded that the TR found that the context of this e-mail had no technical
impact on YMP.




                                                    25
14. E-mail Date: 01/6/2000
    Subject: Re: AMR U0010
    From: Joseph Hevesi
    To: Alan Flint
    Cc:

       The BSC QA Official initially started this e-mail chain by writing in pertinent part, “The audit
team has selected AMR U0010,”Infiltration Model,” which is being developed by USGS, as the fourth
AMR to be evaluated….For records, they will need as a minimum their Scientific Notebooks and the
check/review documents….”

         Hevesi wrote to Alan Flint in pertinent part, “…There is, of course, no scientific notebook for this
work. All work is in the form of electronic files. I can show auditors input, output, and program files, but
it is not clear to me how to show documentation of work in progress. They may be expecting to see
something that at least looks like a scientific notebook documenting work in progress. I can start making
something up but then the CA projects will need to go on hold. If I continue placing [title unknown, name
redacted,]’s tasks as 1st priority for January, I will be ill prepared for the audit, and will likely get
hammered. That’s fine by me. I am far more concerned about the CA projects than I am about the AMR.
But [the USGS Project Officer] will be rather unhappy, and I will need help trying to figure out a good
excuse why 100% of my time did not go into the audit without revealing the CA projects.”

        Hevesi explained that he was communicating with Alan Flint his concern that the upcoming audit
of his YMP net infiltration work was going to cause an increase in his workload and he was asking for his
advice. He said he was also concerned that he did not maintain an SN pertaining to his Infiltration AMR
and was seeking advice from USGS QA staff on how to best proceed with documentation for an SN. He
emphasized that even though he did not maintain an SN, he organized and documented his work by
saving all versions of inputs, outputs, and programs in separate folders and coded each version in
electronic files. Under the assumption that the AMR would become the SN, Hevesi said that if he had to,
he could document the electronic files he was maintaining during his course of work in a notebook, which
would just be a replica of his AMR. He insisted that he never “made up” data, and if he had to, he would
just expand on the hand-written documentation by outlining procedures and explaining file contents and
formats.

       Alan Flint said Hevesi was discussing printing out computerized data in order to make it
presentable to the auditors. He advised that Hevesi was proposing putting this data on paper for the sole
purpose of presenting the data in a reviewable format for the auditors.

      According to Alan Flint, Hevesi did not need to keep an SN for his net infiltration work because
the AMR replaced the need for an SN.

         The USGS Research Hydrologist stated that the BSC QA Official was the lead auditor of Hevesi’s
net infiltration AMR work and he was probably expecting to see an SN. She said her USGS group did not
know what to do in terms of keeping an SN and that QA finally decided that the USGS could use the
AMR as the SN.

       The BSC Official said that based upon his knowledge of Hevesi, his e-mail statements meant that
he was going to go back through his records and attempt to make an SN based on the work he performed.
He also opined that Hevesi and Alan Flint both had the attitude that they were going to do their work the
way they wanted to do it and that getting them to follow QA protocol procedures was difficult because

                                                     26
they both had trouble accepting the fact that data not developed according to QA procedures could not be
used for the YMP License Application, no matter how good the science.

        A Hydrologist with MTS/Golder Associates stated that he received this e-mail in preparation for
the upcoming audit of Hevesi’s net infiltration model AMR and said it would have been very difficult to
fabricate any type of data or information, as scientific data have built-in checks and balances. He
explained that any falsification perpetrated by Hevesi would have been immediately discovered by QA.
He opined that research scientists typically did not feel that all of their work had to be documented in an
SN.

         A Navarro Research and Engineering Inc. Official explained that he was the Verification Manager
for the audit team who conducted the audit of Hevesi’s net infiltration AMR. He stated that the purpose
of this audit was to review technical documents in support of the YMP and to check for consistency and
QA compliance. He advised that this audit revealed that Hevesi’s work lacked proper documentation, and
while this was a QA violation, it had little consequence or interest to the YMP.

       Commenting on the statement made by Hevesi, “I can start making something up,” the Official
believed that Hevesi meant that he would prepare, not falsify, the data needed for the upcoming audit.

         The SNL Official believed that Hevesi’s e-mail statement regarding him not spending all of his
time on the YMP was implying that he was charging YMP for full-time work that he actually performed
on the California Regional project, which was unrelated to YMP. He said that at the time Hevesi made
this statement, he already transferred to the USGS office located in Sacramento, CA, and did not have the
ability to spend all of his time on YMP.

        Other than the implications noted in Hevesi’s statements of “making something up,” the SNL
Official explained that the TR found that the context of this e-mail had no technical impact on YMP. The
TR also found no evidence that Hevesi or any other employee falsified information or technical data
because Hevesi’s net infiltration model AMR satisfied and replaced the QA requirement of maintaining
an SN.

       Three other individuals who had been copied leading up to this e-mail were interviewed; however,
none of them remembered receiving this e-mail, and none were able to provide any additional relevant
information.

15. E-mail Date: 02/17/2000
    Subject: finally the darn coordinates
    From: Joseph Hevesi
    To: [BSC Engineer]
    Cc: [USGS Research Hydrologist]

        Hevesi wrote in pertinent part, “I finally took the time to process your request. This required the
use of TRANSFORM to look at the corners of the DEM, then coordinate transformation using
CORPSCON. ..Please do not tell anyone how this was done because then we will need to get this whole
thing through software QA!”

        Hevesi explained that this e-mail was focused on the Digital Elevation Model (DEM). He claimed
that he sent this e-mail to the BSC Engineer to explain to her how he “checked” this data. He said he was
not sure whether or not his methodology of checking the data also had to be QA’d and he was seeking her
advice.
                                                     27
      He advised that his last sentence in this e-mail was an attempt at humor in the endless process of
the QA chain.

        The BSC Engineer said this e-mail was Hevesi’s response to an e-mail that she believed she sent
to him a few days earlier requesting that he send her, via e-mail, two software programs. She indicated
that this information was originally requested from Hevesi by another QA staff member to whom Hevesi
was not replying, even after numerous attempts by the staff member. She stated that this staff member
requested that she assist in obtaining this information from Hevesi.

        She opined that Hevesi never responded to anyone’s e-mails and he also never complied with QA
protocol procedures. The Engineer claimed that Hevesi often refused to listen to her when she requested
that he follow non-technical “administrative procedures” of QA. When she received this e-mail, she said
she notified Hevesi’s supervisor, Alan Flint, to complain about his lack of response.

        The BSC Engineer concluded that she did not believe Hevesi ever falsified data and only made
these e-mail statements because he hated QA.

        Alan Flint admitted that he has no clue as to why Hevesi made the last statement in this e-mail.
Alan Flint made a guess and stated that Hevesi may have been using non-QA software to double check
his data. In such instances, he said there was a question as to whether non-QA software needed to be put
through the QA process. He said, “This is overkill on Joe’s part,” meaning Hevesi did not need to use
additional software programs to check his data.

        The USGS Research Hydrologist opined that Hevesi wrote this e-mail to discuss how he was
going to fill a request for information, and he described how he was going to check his research results
with the TRANSFORM program. She explained that the TRANSFORM program gives coordinates so
the researcher can determine whether or not the data being provided are correct. She advised that she
does not know why Hevesi sent her this e-mail.

      The SNL Official explained that although Hevesi’s e-mail statements inferred that he may have
circumvented QA procedures, the TR found that the context of this e-mail had no technical impact on
YMP and found no evidence that Hevesi or any other employee falsified information or technical data.

16. E-mail Date: 03/06/2000
    Subject: USGS AMRs
    From: Joseph Hevesi
    To: Alan Flint and [USGS Research Hydrologist]
    Cc: [USGS Hydrologist]

       Hevesi wrote in pertinent part, “…I checked the blocking ridge calculations using BLOCKR7 and
they do not match what is in 30msite.Inp… I am just trying to re-produce the blocking ridge values
provided to me in 30msite.inp back in 1996, and I have not yet been able to do this… I can fudge the
attachment for BLOCKR7 for now but eventually someone may want to run BLOCKR7 to see what
numbers come out and at that point there will be problems, although it is my belief for now that an impact
analysis would reveal that the differences are not critical to the end result.”

        Hevesi explained that BLOCKR7 was a software routine he needed to develop to regenerate
components of older model inputs using ARCINFO. He said these inputs included parameters that were
used in the original 1996 net infiltration model that he did not originally produce. Assuming this
                                                      28
information had already been QA’d, Hevesi stated that initially, there were some differences in the values
and the results being generated, but these differences were eventually resolved.

       Hevesi used the term “fudge” as a place holder for information. He said he had some results, but
this was a work in progress, not necessarily a final document, and he was using the place holders until
another round of checking had been completed. He advised that he was not 100 percent sure that this
information would be in the final QA attachment; a thorough check of inputs still needed to be done, and
he was not suggesting he was using “made-up” numbers in his AMR.

        Alan Flint said he did not believe Hevesi’s use of the word “fudging” was a problem because he
said that if data provided by a subroutine like BLOCKR7 do not match data one knows to be correct, one
has to change the subroutine to make it work. This is a way of fixing software to give correct results,
according to Alan Flint, and Hevesi probably rewrote the program to make it better, but this rewrite
caused problems, so Hevesi had to “fudge the attachment” and/or fix the program.

       The USGS Research Hydrologist indicated that she did not remember receiving this e-mail;
however, she opined that Hevesi’s AMR was a document in progress and that the USGS knew it had to
reproduce all of its research results at some point. She said Hevesi put the BLOCKR7 attachment
discussed in this e-mail into the AMR as a placeholder because the new results from BLOCKR7 would at
some point have to match the old results of BLOCKR7.

        The USGS Hydrologist believed that Hevesi’s statements in this e-mail regarding “fudging
attachments” were nothing more than a slang term used by most geologists when conducting modeling
research. She stated that in their type of climate modeling, the “fudge factor” is known by geologists as
an approximation of how much water is evaporated off the earth’s surface at any given period of time and
that the “fudge factor” has been discussed and debated in numerous scientific publications.

        Hevesi would use equations to enter various types of parameters to fit conditions to match specific
known data points, the USGS Hydrologist said. Reportedly, the BLOCKR7 program was used by Hevesi
to create grid files that were used in his net infiltration model.

       The USGS Hydrologist continued by stating that all research data had to start somewhere, and she
believed that “fudging” was used by Hevesi to mean a beginning point, an approximation of what he
believed to be the correct data based on the information he had available to him at the time.

       A BSC Scientist commented that she did not believe that Hevesi used the word “fudging” to
“make up” data. She believes that scientists use what is known as the “empirical adjustment factor” to
account for uncertainty in data. She believed Hevesi was implying he would try different numbers to see
how they would impact the outcome, not that he was making up data.

        The USGS Project Officer explained that when a researcher does not precisely know what a
particular piece of information means, they use a “fudge factor,” which is the best educated guess in order
to compensate for the lack of knowledge. He believed that Hevesi was not falsifying any information in
this e-mail.

       The SNL Official referenced the statements made by Hevesi in pertinent part, “I checked the
blocking ridge calculations using BLOCKR7 and they do not match; I am just trying to reproduce the
blocking ridge values provided to me in 30msite.inp back in 1996 and I have not yet been able to do this.”


                                                    29
        He indicated that the TR determined that Alan Flint wrote the input files for the 1996 version of
the net infiltration model #1 in order to create output files. The SNL Official said Hevesi wrote the latest
version of the net infiltration model #2 in year 2000 and he wanted to make improvements in the blocking
ridge calculations using a software program called BLOCKR7. It appeared that Hevesi rewrote the
BLOCKR7 program using an existing Word file from the net infiltration model #1 of 1996. He continued
by stating that when Hevesi rewrote the program, he changed some numbers in his calculations, which
caused some of the numbers to not produce what he believed they should. The SNL Official pointed out
that the TR reran the entire BLOCKR7 program and found that Hevesi’s year 2000 net infiltration model
#2 version of BLOCKR7 did not reproduce the 1996 numbers.

       The SNL Official referenced the statement made by Hevesi in pertinent part, “I can fudge the
attachment for BLOCKR7 for now, but eventually someone may want to run BLOCKR7 to see what
numbers come out and at that point there will be problems, although it is my belief for now that an impact
analysis would reveal that the differences are not critical to the end result.”

       The SNL Official opined that Hevesi realized that his original calculation from the 1996 version
changed during his attempt to improve the blocking ridge calculations, and they did not produce what
Hevesi believed they should have produced. He speculated that Hevesi made the statement about
“fudging” the attachment because he could not figure out why he could not get the right results and
believed that the only solution was to create a place holder (fudging) by “cutting and pasting” information
from the 1996 version in order to create the calculations from the 2000 version.

        The SNL Official advised that when the TR reran BLOCKR7, it still did not match the 1996
results and found no evidence that Hevesi ever did falsify this data by “fudging” the attachments;
however, his statements of “fudging attachments” and “wrong calculations” regarding software codes
suggest that Hevesi and Alan Flint poorly executed their software development plan.

       He continued that the TR found that the context of this e-mail had no technical impact on YMP
and found no evidence that Hevesi or any other employee falsified information or technical data.

        Three other individuals who had been previously copied leading up to this e-mail were
interviewed; however, none of them remembered receiving this e-mail and they were unable to provide
any additional pertinent information.

17. E-mail Date: 03/07/2000
    Subject: developed daily precip record
    From: Joseph Hevesi
    To: [QA Specialist contracted by USGS]
    Cc:

       Hevesi wrote in pertinent part, “…Someday I hope to have the time to update this to include an
improved pre-1987 interpolation and all the new data after 1995, which includes some interesting
events… back to QA. P.S. Hope this email doesn’t trigger a 3.15 input request. I’ll probably get fired.”

        Hevesi said he wrote this e-mail to discuss with a QA Specialist contracted by USGS one of the
input files he used for modern climate simulation, and he was indicating that daily precipitation was the
same input used in the 1996 DOE milestone report that was the first documentation of the net infiltration
model. He revealed that he was expressing his frustration to the QA Specialist because he was not able to
add more recent data because he had been focused on improving the future climate simulations.

                                                    30
        Alan Flint explained that “3.15 input request” was a formal procedure established by the DOE to
keep track of data being transferred from the USGS to the LBNL. He said the LBNL was required to
complete a written 3.15 request when requesting any type of data from the USGS. Alan Flint believes
Hevesi was concerned that this e-mail would be interpreted as a back-channel distribution of information
in violation of this procedure, which is why he made the statement, “Hope this e-mail does not trigger a
3.15 input request. I’ll probably get fired.” Alan Flint said Hevesi was frustrated with QA and was
always paranoid about doing the wrong thing and getting fired.

     The SNL Official advised that the TR found that the context of this e-mail had no technical impact
on YMP and found no evidence that Hevesi or any other employee falsified information or technical data.

       The QA Specialist indicated that he does not remember receiving this e-mail and cannot recall the
exact procedural requirements during this period of time. He opined that a 3.15 input request was a
formal procedural requirement to obtain a particular piece of information. He opined that the statement
Hevesi made in this e-mail was his way of expressing his frustrations about the YMP QA process.

18. E-mail Date: 03/09/2000
    Subject: vegcov01
    From: Joseph Hevesi
    To: [USGS Research Hydrologist]
    Cc: Alan Flint and [USGS Hydrologist]

        Hevesi wrote in pertinent part, “On second thought…do whatever you want. At this point I cannot
re-produce the blocking ridge numbers using BLOCKR7 and I have yet to re-visit the elevation stuff [the
USGS Hydrologist] was finding and who knows what will happen if we tried to run ARCINFO on any of
the source data going into the TDMS. There is a bug in the top layer of the cascading bucket model, the
soil ks conversion is off by a factor of 10, and even if I can re-produce the blocking ridges they’re still
wrong.”

        Hevesi indicated that he wrote this e-mail to the USGS Research Hydrologist to explain his
suggestion of not using a vegetation map for the Regional Project. He explained that “the regional
vegetation type” (an integer code) was occupying a column in the input file for the Yucca Mountain site
scale model, but it was not being used. He said he was attempting to point out to the USGS Research
Hydrologist that the unused parameter in the input file should be left alone, rather than to modify it in
order to make it simpler for QA purposes. He said that in this e-mail, he was simply “ranting and raving”
over these details and was openly discussing via e-mail his concerns with his supervisor and two QA
reviewers.

       The USGS Research Hydrologist said the “vegcov01” was a pre-processing program and that it
used a data set that created a grid. She recalled that it was “a pain in the ass to run it everytime [she]
needed to use this program.” She advised that this was one of those cases of going down the wrong path
and using an inefficient method.

       She believed that Hevesi wrote this e-mail to explain to his supervisors that he did not need to QA
the “vegtyp01” work because the USGS did not use it.

     The SNL Official advised that the TR found that the context of this e-mail had no technical impact
on YMP and found no evidence that Hevesi or any other employee falsified information or technical data.


                                                    31
     The USGS Hydrologist was copied on this e-mail and interviewed; however, she did not
remember receiving this e-mail, and she was unable to provide any additional pertinent information.

19. E-mail Date: 03/30/2000
    Subject: Installations
    From: Joseph Hevesi
    To: [USGS Geologist]
    Cc: [QA Specialist], Alan Flint, and [USGS Research Hydrologist]

       The BSC QA Specialist initially began this e-mail chain by writing to the USGS Geologist in
pertinent part, “I am following up on our conversation today about the installations I have pending. The
information I need have these codes already been installed to initiate the 5.11 process, or do they still
need to be installed?...”

        Hevesi wrote to the USGS Geologist in pertinent part, “The programs, of course, are already
installed otherwise the AMR would not exist. I don’t have a clue when these programs were installed. So
I’ve made up the dates and names (see red edits below). This is as good as its going to get. If they need
more proof I will be happy to make up more stuff, as long as its not a video recording of the software
being installed.”

        Hevesi admitted that he was “jumping the gun” when he wrote this e-mail, and it was strictly an
emotional response to the Geologist’s e-mail requesting the installation dates to the SURFER,
TRANSFORM, and ARCINFO software programs. He said he should not have made the statements he
did in this e-mail because he was certain that he had used valid installed software as opposed to copied or
unlicensed software, and the dates that were requested by the Geologist were to verify this.

       He advised that he could prove that he downloaded only licensed versions of these programs
because a USGS Research Hydrologist installed them for him. He said he knew that these software
programs were installed during the year reflected in this e-mail; he just did not know the specific date, so
he chose January 1.

        He revealed that the software programs SURFER and TRANSFORM are “Fortran” codes and are
visual and graphic software, and neither of them generate or manipulate data. He stated that ARCINFO
was a 1996 version and it had already been QA’d. Reportedly, all three software programs eventually
were exempt from having to be QA’d.

        Alan Flint stated that he was not sure whether or not these software programs were part of the QA
process and did not know why the dates were requested by the BSC QA Specialist. He indicated that he
believed these software programs primarily displayed graphics but that ARCINFO was updated in more
recent versions to perform data “manipulations.” He said he believed that the USGS did use ARCINFO
for other than graphical presentations on USGS’ YMP work. However, he said ARCINFO was only used
on “research into developing a model, trying to find a methodology that works.” He said that they did not
use ARCINFO in the model itself.

       In Alan Flint’s opinion, Hevesi made this statement about “making up dates of installation”
because he was probably upset and wondering why QA needed these dates. He said Hevesi was not as
knowledgeable as he was about the QA changes to the QA protocol procedure and would always pass this
information to Hevesi.


                                                     32
        According to Alan Flint, it was QA’s responsibility to handle the issue of knowing when the dates
of installation were once they were notified by Hevesi of the request.

       The USGS Research Hydrologist indicated that she does not remember receiving this e-mail;
however, she opined that Hevesi did not know that he needed to log installations dates and said that
eventually, the USGS received a QA person who would be responsible for software installation and
documentation of the installations. She advised that the fictitious software installation dates would make
absolutely no difference and would not affect the results of Hevesi’s AMR.

        The USGS Hydrologist explained that the software identified in this e-mail is application software
that develops graphics, and he said the BSC QA Specialist may have requested the installation dates in an
attempt to determine if the software had been qualified. He stated that the only thing he knows about the
software is that all three of them can be bought over-the-counter and have the ability to overlay and
manipulate data, but they cannot analyze data.

        A USGS QA Software Specialist explained that the USGS Geologist requested the installation
dates to these three software programs from Hevesi in order to satisfy an Interim Use Document
requirement pertaining to “unqualified software.” She was sure that the three software programs
identified in this e-mail were exempt from having to be “qualified” by QA and did not have to be “base-
lined” or documented. She said that during the time of the Geologist’s request, nobody in her department
knew for sure what software needed to be QA’d. In some cases, she said, software that was initially
required to be QA’d ended up not having to be QA’d.

        The QA Software Specialist advised that the knowledge of the dates of software installation would
only be important because a QA Specialist had to know this information to be able to “qualify” it and get
it “base-lined” in order to be able to place it in the “software library.” She explained, however, in this
case, knowing the dates of software installation would not be significant since they were considered by
QA to be exempt from the qualification.

        According to the QA Software Specialist, Hevesi made the statements in this e-mail because he
knew that knowing the installation dates of these three software programs would not impact the quality of
the final data analysis in being able to obtain the license from the NRC. She also said Hevesi hated the
constant changes in QA protocol because it took him away from his research, but she did not believe he
ever tried to circumvent QA protocol.

        The SNL Official indicated that the TR found that after the January 2000 audit of Hevesi’s AMR,
the auditors discovered that Hevesi violated QA procedures by not creating an SN and keeping records of
data traceability. As a result, he stated that the BSC QA Specialist requested the dates of software
program installation for the 5.11 software program process referenced in this e-mail. He said that since
Hevesi did not keep any records or a scientific notebook, the BSC QA Specialist had to fix the
deficiencies found in the audit, ex post facto, by requesting the information from the USGS Geologist,
who in turn requested it from Alan Flint, who then requested it from Hevesi.

       The SNL Official believed that Hevesi made these statements because he did not want to be
bothered with having to follow QA procedure. He indicated that the proper QA procedure is to fill out the
appropriate forms before any software program is installed, which Hevesi failed to do.




                                                    33
DOI/OIG and DOE/OIG E-mail Follow-up Review

        This investigation included the follow-up review of approximately 150,000 additional e-mails that
were either prepared or received by the USGS employees identified in the original questioned e-mails.
These 150,000 e-mails were originally generated from January 1, 1998, through May 5, 2005, and were
retrieved and copied from the YMP and USGS e-mail databases and back-up tapes for the investigative
team. This review was conducted in conjunction with DOE OIG agents to determine whether or not any
additional e-mails contained messages that appeared to indicate possible criminal conduct, including the
making of false statements, the falsification of documents, and/or the circumvention of QA protocol
requirements related to the YMP. These additional e-mails were not individually reviewed by the SNL
Official or the TR team, as the TR was specific to Hevesi’s work in producing the Infiltration AMR. The
following information was developed as a result of interviews conducted concerning the seven additional
e-mails that we determined included similar content to the original 19 e-mails and had potential criminal
implications.

20. E-mail Date: 02/03/2000
    Subject: Re: DEM Accepted Data
    From: Joseph Hevesi
    To: [BSC Engineer]
    Cc: [USGS Research Hydrologist]

       Hevesi wrote in pertinent part, “Of course I could make something up. My guess for a date is
3/31/60. I can calculate the lat/long for the corners of the dem. Will that work?”

        The BSC Engineer believed that Hevesi wrote this e-mail in response to her e-mail request for
information for a Technical Data Information Form request. She said Hevesi was responding to her
requests for information in his usual way of not remembering specific dates because he continuously
failed to document his research work. She also indicated that she believed that he never complied with
the QA protocol requirement of maintaining an SN; if he had, he would have been able to provide the
information she requested.

        Hevesi said he wrote this e-mail in response to the Engineer’s request for the beginning and
ending dates associated with the latitude and longitude of the DEM’s corners research work. He advised
that this e-mail was another example of his frustration about the QA but that he never “made up” any
dates or falsified data.

        The USGS Research Hydrologist indicated that she did not remember receiving this e-mail and
did not understand why Hevesi would have copied this e-mail to her. She opined that Hevesi may have
been attempting to show her that complete unquestioned compliance with QA “rules” is not always
possible because the rules do not account for all types of data or documents.

21. E-mail Date: 01/20/2000
    Subject: Re: Earthinfo
    From: [BSC Engineer]; Joseph Hevesi
    To: Joseph Hevesi; [BSC Engineer]
    Cc: [BSC QA Official]

       Hevesi wrote in pertinent part, “This information is not provided by the database, therefore I
cannot provide it. However, if this becomes a problem, let me know and I will make something up.”

                                                    34
       The BSC Engineer wrote in pertinent part, “Joe, we really need some methods (make up
something 1 or 2 lines) and beginning and ending data collection date for the whole package.”

         The BSC Engineer explained that Hevesi wrote this e-mail to her in response to an e-mail she had
sent to him requesting information for a Technical Data Information Form request. She indicated that the
BSC QA Official asked for her assistance to retrieve information from Hevesi regarding specific dates
and methods of his net infiltration model. She said she requested this information from Hevesi because
the BSC QA Official needed it within 30 days and, as usual, his e-mail response to her indicated that he
could not provide this information because it was too long ago to remember. Her statement to Hevesi,
“Joe, we really need some methods (make up something 1 or 2 lines)” was not made to ask for him to
literally falsify data by making up information, but she said all she wanted him to provide was an estimate
of the dates and methods.

        Hevesi said that in this e-mail, the BSC Engineer was trying to complete a QA form and needed
additional clarifying information to be able to do so. He explained that the information in question,
EARTHINFO, was data that was obtained from the National Climate Data Center and is publicly
available precipitation data. Hevesi said he provided clarity to the Engineer in a following e-mail by
stating that the measuring methods were used to record precipitation rates. He advised that he did not
“make up” or falsify any data.

       The BSC QA Official indicated that she does not remember receiving this e-mail; however, she
opined that the BSC Engineer copied her on this e-mail to “keep her in the loop” about the status of her
requests to Hevesi to provide her with documentation.

22. E-mail Date: 12/21/1998
    Subject: Re: Training Lists - Geologists
    From: [USGS QA Specialist]
    To: [QA Specialist]
    Cc:

        The USGS QA Specialist wrote in pertinent part, “I have one last address for you (below). I was
thinking – since the geologists have already been out doing work to GP-01, how to we “backdate” the
reading assignment? Say that they read it before (blatantly untrue), or do we need to write a
deficiency?”

        The QA Specialist said she does not remember receiving this e-mail; however, she stated that she
could provide some background to the meaning of this e-mail. She said that when she worked for the
USGS, her responsibilities included maintaining a database that housed all of the USGS procedures, and
when new QA procedures were written or the old procedures were updated, all YMP employees signed a
verification form indicating that they had read the new or updated QA procedures. She indicated that once
she received these verification forms, she would input the data, including the date, into the database. She
stated that the USGS QA Specialist was an honest, hard worker that remained diligent to ensure the
scientists in her division read the new QA procedures and signed the verification forms. In this particular
instance, the QA Specialist was not sure of the outcome, but she believed that the USGS QA Specialist’s
question about whether or not “back-dating” a YMP document would be authorized had been decided by
management.

       The USGS QA Specialist indicated that she wrote this e-mail to the QA Specialist to seek her
advice on how to instruct the USGS geologists to notate their SN or field notes when they have already

                                                    35
completed the particular work. She said she just started this job position and she was making sure she was
adhering to the proper QA protocol procedure.

23. E-Mail Date: 05/05/2000
    Subject: Re: Loose end
    From: [SNL Technician]
    To: [USGS Research Hydrologist]
    Cc: [Los Alamos Laboratory Official, University of California]

        The SNL Technician wrote in pertinent part, “Can you please print out the attached (my response
to your comments are in blue), sign it and send the hard copy back to me. The time stamp on this file is
1/20/00. I’m guessing [the Los Alamos Laboratory Official, University of California,] would like it
backdated to then.”

        The USGS Research Hydrologist responded in pertinent part, “My comment attached below
actually are “informal” and were not made as part of the AP-2.14Q review. I made the comments in my
role then as the “Responsible Manager.” The comments have no official procedural status other than, as
“Responsible Manager,” I would not have approved the AMR if the comments were not resolved.”

       The USGS Research Hydrologist stated that he wrote this e-mail in response to the SNL
Technician’s e-mail asking him to sign the AP-2.14Q review form. He said that in this e-mail, he
informed the Technician that he did not need to sign the form because the comments he provided on the
form were not part of the formal QA review process. He explained that he also did not sign the form or
back-date it to January 20, 2000, because he knew the importance of avoiding back-dating YMP
documents.

        The SNL Technician indicated that he wrote this e-mail to the Research Hydrologist to get his
signature on an AP-2.14Q review form that he prepared but forgot to sign. He said one of his
responsibilities as a Technician was to ensure that all of the forms to be submitted to QA from his
department had proper signatures. He advised that he was not asking the Research Hydrologist to
“falsify” any information when he asked him to back-date the form to January 20, 2000.

        The Los Alamos Laboratory Official, University of California, indicated that he did not remember
receiving this e-mail; however, he opined that the SNL Technician was wrong when he stated that he is
“guessing” that he (the Official) would like the approval to be “back-dated” to reflect the time stamp. The
Official advised that he would not do something like that, and to his knowledge, no document was ever
“back-dated.”

24. E-mail Date: 06/28/2000
    Subject: Re: ATC SN initial entry
    From: [QA Specialist, Pacific Western Technology]
    To: [USGS Research Hydrologist]
    Cc: [USGS Staff Hydrologist]

        The USGS Research Hydrologist began this e-mail chain and wrote in pertinent part, “I don’t
know whether we can do this, but I’d like to actually have rev. numbers to this and rev. it when the need
arises. I know this is an “initial” entry implying that it can only be done at the beginning, but I thought
I’d ask anyway…Furthermore, is there a way to have this approval retroactive….there are entries in the
looseleaf addendums dated prior to the approval date.”

                                                     36
       The QA Specialist, Pacific Western Technology, responded in pertinent part, “How far back do
you need to back-date the initial entry? Please let me know ASAP so I can date the review appropriately.
Your notebook number will be SN-USGS-SCI-123-V1.”

        The USGS Research Hydrologist indicated that the QA Specialist, Pacific Western Technology,
misunderstood his question when he asked him whether or not the approval to the review of the initial
entry of the SN for the Alluvial Testing Complex (ATC) could be “retroactive” because there were notes
made in the SN earlier than June 2000. He said he was not asking for the initial entry to be back-dated; he
was only asking whether or not the approval of the initial entry can include research material that was
conducted prior to the June 2000 approval date.

        He advised that the SN referenced in this e-mail was never back-dated and opined that the QA
Specialist, Pacific Western Technology, misunderstood his question about “retroacting” the initial entry
date of this SN.

       The QA Specialist, Pacific Western Technology, indicated that while he was assigned to the YMP,
he was responsible for reviewing and ensuring that all SNs were in compliance with the QA protocol
requirements. He said that during a routine review of the USGS Research Hydrologist’s SN, he
discovered that the Research Hydrologist had failed to make an entry in his SN about the “transition” date
from the old QA procedure to the new QA procedure. As a result, he wrote this e-mail to the Research
Hydrologist to request that he make the correct entry date in his SN. He admitted that he should have
used a better choice of words such as “accurate date” rather than “back-date” when he requested this
information. He stated that he was not asking the Research Hydrologist to falsify any dates or any other
data.

         The USGS Staff Hydrologist said the QA Specialist’s response to the USGS Research Hydrologist
in this e-mail was inappropriate and opined that the QA Specialist should have responded instead by
stating that there was no mechanism in place to obtain retroactive approval of an initial entry for an SN.
He also said that to his knowledge, no document was ever “back-dated.”

25. E-mail Date: 05/03/2000
    Subject: SN0001
    From: [QA Specialist, Pacific Western Technology]
    To: [USGS Geologist]
    Cc:

        The QA Specialist, Pacific Western Technology, wrote in pertinent part, “Please make sure each
notebook contains an entry transitioning from QMP-5.01, to R6 AP-SII.1Q. This entry needs to be dated
prior to 9/1/99. Back-date if necessary, but I never told you to do that!”

        The USGS Geologist stated that he does not remember receiving this e-mail. He opined that the
QA Specialist, Pacific Western Technology, was apparently requesting that the SN he was working on
during this period of time contained an entry identifying the transition from the USGS SN procedure to
the newer DOE SN procedure, and if necessary, to back-date the entry prior to September 1, 1999. He
indicated that he does not remember “back-dating” any SN and does not recall what the procedures were
pertaining to “back-dating” SNs.

       The QA Specialist, Pacific Western Technology, said his primary responsibility was to review
SNs for accuracy and compliance pertaining to the YMP QA protocol procedures. He said he reviewed
the USGS Geologist’s SN and discovered that the Geologist failed to fill out the proper entry date in his
                                                  37
SN, and as a result, he requested the Geologist via e-mail to make the entry in his SN. He admitted that
he should have used a better choice of words such as “accurate date” rather than “back-date” when he
requested this information from the Geologist. He advised that he did not ask the Geologist to falsify any
dates or data.

26. E-mail Date: 02/14/2001
    Subject: Re: Scientific Notebook
    From: Alan Flint
    To: [USGS Project Officer]
    Cc: [Scientific Notebook and Measuring Test Official] and Joseph Hevesi

       Alan Flint wrote in pertinent part, “We appreciate the help in having a full time YMP person
keeping us honest and following all of the rules. Should we assume that [the Scientific Notebook and
Measuring Test Official] has been assigned the responsibility for keeping us in full QA compliance? Also,
we may want to back-date the notebook to when we started putting things together, if that’s doable.”

        Alan Flint indicated that he never back-dated any YMP document. He explained that there was
confusion within their group as to how to initiate a new project that required an SN using research work
that they conducted years before. He said he wrote this e-mail to the USGS Project Officer to inquire
whether or not they may have any information that would assist him in creating an SN using prior
completed research.

        Hevesi explained that in order to write a proposal to conduct a low temperature exercise, he had to
use data from his net infiltration model. He said he had to do this prior to writing the proposal to be able
to set up an example scenario. Since the scoping was already done, he said he was unsure at what point in
time the work actually “begins.” He added that he was providing the work to the “re-charge” modelers
and was given a tight deadline. He stated that he does not know what became of his results, as he did not
prepare an AMR on the exercise, but he stated that he never “back-dated” any YMP document.

        The USGS Project Officer stated that he does not remember receiving this e-mail. He opined that
Alan Flint was only asking him a question about whether or not he could “back-date” the SN without
violating QA procedure. He opined that when Alan Flint wrote this statement, he was expressing his
appreciation for the support of a full-time, YMP person to help keep him honest and the importance of
abiding by YMP QA protocol.

       The Scientific Notebook and Measuring Test Official said she did not remember receiving this e-
mail and could not provide any additional pertinent information. She advised that she was never involved
with anything “technical” that related to YMP documents.

Additional Information

Alan Flint’s General Response to Hevesi’s E-mails

       Alan Flint said that when he received these e-mails from Hevesi, he normally responded by calling
him rather than responding to his e-mails with another e-mail. He claimed that he never formally
reprimanded Hevesi for the statements that he made in these e-mails and/or the use of the e-mail system in
this manner. He explained that these e-mails only show “one-side” of the conversation that was taking
place within a long string of e-mail communications.


                                                    38
       He admitted that these e-mails appeared to be “red flags” by Hevesi and his way of notifying him
of problems that he believed needed to be addressed. He advised that “the solution” to these problems
was the final analysis that the USGS prepared for the YMP and that he stands behind the work the USGS
conducted for the YMP.

DOE and USGS Management’s Lack of Supervisory Oversight

        The SNL Official advised that the most significant finding identified in the TR was not the lack of
technical credibility regarding Hevesi’s and/or Alan Flint’s work, but the “cultural” and “integrity” issues
that seemed to have developed between them while they were assigned to the YMP.

        He further explained that because these e-mails provided insight into Hevesi’s and Alan Flint’s
poor attitude and demeanor toward YMP QA protocol requirements, it appears necessary to provide
additional assurances of the completeness and accuracy surrounding their net water infiltration research.

        The SNL Official also stated that the context of the original questioned e-mails reveals Alan
Flint’s arrogance and dismissive attitude toward other YMP staff members and, to a certain extent, his
dismissive attitude toward QA protocol, which were revealed in the majority of the statements he made in
response to Hevesi’s e-mails. The SNL Official said Alan Flint’s dismissive attitude of QA protocol was
most concerning to him because of Alan Flint’s supervisory position. According to the SNL Official, Alan
Flint and Hevesi isolated themselves from the rest of the project and made it known that they did not want
to work with anyone else except each other. He opined that they were in fierce competition with other
entities and had an egotistic attitude toward anyone who was not part of the USGS.

        The USGS Project Officer opined that Hevesi wrote these e-mails as a “cry for help” because Alan
Flint, his supervisor, and support group were located in Sacramento, CA, while he was located at the
YMP site. He believes Hevesi felt alone and isolated at the YMP site and wrote these e-mails because it
was his most effective way of communicating to his supervisor and support group. In hindsight,
according to the USGS Project Officer, he should have exercised more supervisory oversight over Hevesi
and Alan Flint during the time period they were assigned to the YMP.

       A review of Hevesi’s USGS personnel file found that Hevesi has been employed by the USGS
since 1992, and during this period of time, he has not received any disciplinary actions. During the past
14 years, he has received $6,914 in cash awards and an 8-hour “time off” award while being supervised
by Alan Flint.

       A review of Alan Flint’s USGS personnel file found that he has been employed by the USGS
since 1986, and during this period of time, he has not received any disciplinary actions. During the past
14 years, he has received $14,500 in cash awards and one 8-hour “time off” award.

Missing Net Infiltration Model Control Files

        The SNL Official stated that in February 2004, BSC began a one-time comprehensive evaluation
of the set of AMRs that support the License Application to the NRC. He said one of the AMRs evaluated
was Hevesi’s Infiltration AMR. According to the SNL Official, a Regulatory Integration Team was
formed to conduct a comprehensive regulatory-focused evaluation of this and other YMP AMRs to
identify issues and to revise reports as appropriate. He indicated that the team’s objective was to evaluate
and subsequently refine the AMRs that support the License Application and to improve integration,
consistency, transparency, and traceability. During the evaluation of Hevesi’s Infiltration AMR, he said
the Regulatory Integration Team was unable to reproduce Hevesi’s infiltration model within the
                                                      39
Infiltration AMR, and after several requests to and submissions by Hevesi, it was found that
approximately 37 out of the 110 control files were missing.

         The SNL Official said a Condition Report was initiated in February 2005, and BSC management
contacted the USGS in early March 2005 to officially request that Hevesi locate these 37 missing control
files. He stated that Hevesi was subsequently authorized to charge 40 hours against the YMP account to
assist in locating the control files; however, in April 2005, the decision to pay Hevesi to assist in locating
the missing control files was rescinded, and no time was actually charged. Hevesi subsequently located
the 37 missing control files at his residence, and they were ultimately provided to the YMP OCWRM.


                                              Disposition
      This investigation was declined for prosecution by the United States Attorney for the District of
Nevada.




                                                      40
